<html>
<title> - THE STATE OF AVIATION SAFETY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                      THE STATE OF AVIATION SAFETY

=======================================================================

                                (115-36)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2018

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                               __________
                                  

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-404 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f6918699b6958385829e939a86d895999bd8">[email&#160;protected]</a>                          
                             
                             


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
DANIEL WEBSTER, Florida              ALBIO SIRES, New Jersey
JEFF DENHAM, California              JOHN GARAMENDI, California
THOMAS MASSIE, Kentucky              HENRY C. ``HANK'' JOHNSON, Jr., 
MARK MEADOWS, North Carolina         Georgia
SCOTT PERRY, Pennsylvania            ANDRE CARSON, Indiana
RODNEY DAVIS, Illinois               RICHARD M. NOLAN, Minnesota
MARK SANFORD, South Carolina         DINA TITUS, Nevada
ROB WOODALL, Georgia                 SEAN PATRICK MALONEY, New York
TODD ROKITA, Indiana                 ELIZABETH H. ESTY, Connecticut, 
JOHN KATKO, New York                 Vice Ranking Member
BRIAN BABIN, Texas                   LOIS FRANKEL, Florida
GARRET GRAVES, Louisiana             CHERI BUSTOS, Illinois
BARBARA COMSTOCK, Virginia           JARED HUFFMAN, California
DAVID ROUZER, North Carolina         JULIA BROWNLEY, California
MIKE BOST, Illinois                  FREDERICA S. WILSON, Florida
RANDY K. WEBER, Sr., Texas           DONALD M. PAYNE, Jr., New Jersey
DOUG LaMALFA, California             ALAN S. LOWENTHAL, California
BRUCE WESTERMAN, Arkansas            BRENDA L. LAWRENCE, Michigan
LLOYD SMUCKER, Pennsylvania          MARK DeSAULNIER, California
PAUL MITCHELL, Michigan              STACEY E. PLASKETT, Virgin Islands
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota

                                  (ii)

  
                        Subcommittee on Aviation

                FRANK A. LoBIONDO, New Jersey, Chairman

DON YOUNG, Alaska                    RICK LARSEN, Washington
JOHN J. DUNCAN, Jr., Tennessee       EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 DANIEL LIPINSKI, Illinois
DUNCAN HUNTER, California            ANDRE CARSON, Indiana
BLAKE FARENTHOLD, Texas              CHERI BUSTOS, Illinois
BOB GIBBS, Ohio                      ELEANOR HOLMES NORTON, District of 
DANIEL WEBSTER, Florida              Columbia
JEFF DENHAM, California              DINA TITUS, Nevada
THOMAS MASSIE, Kentucky              SEAN PATRICK MALONEY, New York
MARK MEADOWS, North Carolina         JULIA BROWNLEY, California
SCOTT PERRY, Pennsylvania            DONALD M. PAYNE, Jr., New Jersey
RODNEY DAVIS, Illinois               BRENDA L. LAWRENCE, Michigan
MARK SANFORD, South Carolina         MICHAEL E. CAPUANO, Massachusetts
ROB WOODALL, Georgia                 GRACE F. NAPOLITANO, California
TODD ROKITA, Indiana                 STEVE COHEN, Tennessee
BARBARA COMSTOCK, Virginia           HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LaMALFA, California             Georgia
BRUCE WESTERMAN, Arkansas            RICHARD M. NOLAN, Minnesota
PAUL MITCHELL, Michigan, Vice Chair  PETER A. DeFAZIO, Oregon (Ex 
JASON LEWIS, Minnesota               Officio)
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               WITNESSES

Ali Bahrami, Associate Administrator for Aviation Safety, Federal 
  Aviation Administration:

    Testimony....................................................     6
    Prepared statement...........................................    39
    Responses to questions for the record from the following 
      Representatives:

        Hon. Sam Graves of Missouri..............................    49
        Hon. Mark DeSaulnier of California.......................    54
        Hon. Daniel Lipinski of Illinois.........................    61
Akbar Sultan, Deputy Director, Airspace Operations and Safety 
  Program, National Aeronautics and Space Administration:

    Testimony....................................................     6
    Prepared statement...........................................    63
John DeLisi, Director, Office of Aviation Safety, National 
  Transportation Safety Board:

    Testimony....................................................     6
    Prepared statement...........................................    69
    Responses to questions for the record from the following 
      Representatives:

        Hon. Sam Graves of Missouri..............................    81
        Hon. Mark DeSaulnier of California.......................    82
Matthew E. Hampton, Assistant Inspector General for Aviation 
  Audits, Office of Inspector General, U.S. Department of 
  Transportation:

    Testimony....................................................     6
    Prepared statement...........................................    85
    Responses to questions for the record from Hon. Mark 
      DeSaulnier of California...................................    97
Captain Tim Canoll, President, Air Line Pilots Association, 
  International:

    Testimony....................................................     6
    Prepared statement...........................................    99
    Responses to questions for the record from Hon. Daniel 
      Lipinski of Illinois.......................................   123

                       SUBMISSIONS FOR THE RECORD

Hon. Steve Cohen, a Representative in Congress from the State of 
  Tennessee, submission of the following:

    Accident Report of the National Transportation Safety Board, 
      ``Uncontained Engine Failure and Subsequent Fire: American 
      Airlines Flight 383, Boeing 767-323, N345AN, Chicago, 
      Illinois, October 28, 2016,'' NTSB/AAR-18/01, PB2018-100344 
      \1\
    Flyers Rights Education Fund, Inc. D/B/A FlyersRights.org, 
      and Paul Hudson, Petitioners v. Federal Aviation 
      Administration, et al., Respondents (D.C. Cir. July 28, 
      2017) (No. 16-1101)........................................   124
Letter of February 26, 2018, from Air Care Alliance et al. to 
  Hon. Mitch McConnell, Majority Leader, U.S. Senate et al., 
  submitted by Hon. Rick Larsen, a Representative in Congress 
  from the State of Washington...................................   147

----------
\1\ This 91-page accident report can be found online at the National 
Transportation Safety Board's website at https://ntsb.gov/
investigations/AccidentReports/Reports/aar1801.pdf.

                        ADDITIONS TO THE RECORD

Written statement from Stephen A. Alterman, President, Cargo 
  Airline Association............................................   155
  
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


 
                      THE STATE OF AVIATION SAFETY

                              ----------                              


                       TUESDAY, FEBRUARY 27, 2018

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m. in 
room 2167, Rayburn House Office Building, Hon. Frank A. 
LoBiondo (Chairman of the subcommittee) presiding.
    Mr. LoBiondo. Good morning. The subcommittee will come to 
order. And, without objection, the Chair is authorized to 
declare a recess at any time. And I ask unanimous consent that 
members not on the subcommittee be permitted to sit with the 
subcommittee at today's hearing and ask questions.
    Without objection, so ordered.
    Thanks again for all of you being here today. Today's 
hearing will focus on the subcommittee's number one priority: 
ensuring the safety of the aviation system and the traveling 
public.
    Our system is extremely safe; last year, nearly 850 million 
passengers boarded passenger aircraft within or flying to the 
United States and, due to the hard work of all of you and 
others in the aviation sector, there were no fatalities on 
those aircraft.
    This milestone, however, does not mark the end of our work. 
While the high level of safety we have achieved is a result of 
close collaboration between Congress, the Federal Aviation 
Administration, industry, and labor, we must remain vigilant 
and recognize that we can always do more and be better to 
ensure the safety in our skies.
    I would like to recognize the Colgan Air families who are 
in attendance today, and thank you for your steadfast support 
of safety issues, and we appreciate your being with us once 
again on this ninth anniversary of the tragic crash near 
Buffalo, New York.
    Recent events and near misses remind us of the work that 
remains. Last year we avoided a potentially catastrophic event 
when an Air Canada jet carrying 140 people accidentally lined 
up to land on a taxiway where 4 planes were waiting to take 
off. These planes carried more than 900 people, and the margin 
between a near miss and one of the worst aviation disasters in 
history was less than 25 feet. That is a pretty scary thought. 
This near miss and others have rightfully focused our attention 
on runway safety.
    But while we work to maintain and improve the safety of 
commercial airlines, we must also work to improve safety in 
other segments of aviation. The general aviation community 
makes up a large and diverse part of our national airspace, 
including over 200,000 aircraft and approximately 500,000 
pilots.
    Again, due to the collaboration between Congress, FAA, and 
the aviation community, GA fatality rates have declined 
significantly over the past decade. However, in fiscal year 
2016, there were still over 200 fatal GA accidents and over 350 
total lives lost.
    Helicopter safety also continues to be an area of focus for 
this committee. Too often we see helicopter crashes in which 
occupants survive, only to be injured or killed in post-crash 
fires. Just 2 weeks ago, a sightseeing helicopter at the Grand 
Canyon crashed, killing three, seriously injuring four. In this 
accident, there was a post-crash fire. Crash resistant fuel 
systems on rotorcraft continue to be a safety priority. And 
while the circumstances of the recent accident are still under 
investigation, there is a bipartisan consensus in Congress to 
address this issue.
    Lastly, as drone operations in the national airspace 
continue to increase, the risk of them interfering with the 
safe operation of manned aircraft increases. The risk was 
illustrated on September 21st in 2017, when a small drone 
collided with a U.S. Army Black Hawk over New York Harbor, 
damaging the helicopter's rotor and forcing an emergency 
landing. While no one was injured, it is not hard to imagine 
that this kind of accident occurring again could have very, 
very serious consequences.
    Aviation safety is not a destination, it is a never-ending 
process of evaluation, analysis, and course correction. Without 
continuous improvements in safety, the aviation industry as we 
know it would have great difficulty existing.
    And as I said before, aviation safety has continued to 
improve as a result of Government, labor, and industry 
collaboration, but there is always a lot more to be done.
    The FAA has primary responsibility for aviation safety, and 
it must ensure oversight activities that are open and 
transparent, as well as streamlined and efficient. Many safety 
improvements stem from the basic research, the introduction of 
new technologies, and the management of new users making their 
way into the airspace.
    The FAA's Technical Center, located in my district--in case 
any of you did not realize that up to this point--Rick--plays a 
very critical role in the partnership between Government and 
industry. They continue to be a leader in conducting research 
and development, demonstration, and validation of the safe 
integration of new users and technologies into our airspace.
    New technology and new users bring new risk. If not 
properly integrated, they could have an adverse effect on the 
civil aviation safety.
    Each person on our panel has a unique role in ensuring the 
safety of the aviation system. We welcome these varied and 
unique perspectives as we continue to work together to ensure 
the United States continues to have the safest aviation system 
in the world.
    Before recognizing Ranking Member Rick Larsen, I would like 
to ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may be submitted to them in 
writing, and unanimous consent that the record remain open for 
15 days for additional comments and information submitted by 
Members or witnesses to be included in the record of today's 
hearing.
    Without objection, so ordered.
    I now would like to recognize Mr. Larsen for any opening 
remarks.
    Mr. Larsen. Thank you, Chairman LoBiondo, for calling 
today's hearing on aviation safety. This is a very important 
hearing. Our aviation system is safe, safer than it has ever 
been before. No one has died in an accident involving a U.S. 
flight airliner since 2009, when Colgan Air flight 3407 crashed 
near Buffalo and claimed 50 lives.
    Safe is not enough, though. This subcommittee's job is to 
provide the resources and oversight necessary for the Federal 
Aviation Administration to make the system even safer. That 
must be our starting point today. Everyone agrees we have the 
safest system in the history of flight. But what can we do to 
make the system safer still?
    Well, for starters, that means not rolling back safety 
rules. Some have argued for a rollback of the strong pilot 
training rules that require 1,500 hours of flight time that 
Congress mandated after the Colgan Air crash. Those standards 
were the product of focused oversight by this subcommittee, and 
were enacted without any partisan objection.
    If we want to talk about what Congress, the FAA, and others 
can do to make the airline pilot profession even more 
accessible to the next generation of pilots, we should have 
that conversation. But any reduction in the experience 
requirements for airline pilots is a nonstarter. Such a 
proposal has kept the Senate FAA reauthorization bill off the 
Senate floor for nearly a year.
    Congress has never rolled back an airline safety rule, 
simply to respond to the market forces of supply and demand. If 
there is a pilot shortage--and that is a big if--we will find 
ways to address it without sacrificing safety.
    I look forward to hearing from our witnesses about what the 
FAA can do to improve safety. I was pleased to join Ranking 
Member DeFazio and Congressman DeSaulnier last week in 
requesting a GAO [Government Accountability Office] study of 
safety in runway environments. Now is the time to take a closer 
look at what steps are necessary to prevent future near misses 
and runway incursions at airports across the U.S. A better 
understanding of current safety gaps would help ensure the 
safety of the 2.5 million people who fly in and out of U.S. 
airports every day.
    Just last year, an Air Canada flight almost landed on top 
of a queue of airplanes waiting to take off at San Francisco. A 
landing Delta flight in Atlanta lined up with a taxiway in poor 
visibility before going around for another approach.
    And a Horizon Air flight actually landed on the taxiway in 
Pullman, Washington, as did an Alaska Airlines flight in 
Seattle. Needless to say, we are fortunate that there were not 
any other planes on those taxiways.
    The NTSB is investigating several of these incidents, and I 
understand the Department of Transportation inspector general 
is assessing runway safety, as well. I look forward to hearing 
more from all of our witnesses about how we can prevent 
recurrences of these events before they lead to accidents.
    I am also interested in hearing from our witnesses about 
what we should do to reduce the risk that a drone may one day 
collide with a conventional airplane. A provision in the 2012 
FAA bill prohibits the FAA from directly regulating the 
recreational operations of drones. But, as recreational drone 
use flourishes, should the FAA be so restricted? What can the 
FAA do to prevent collisions between recreational drones and 
other aircraft?
    Captain, Mr. Hampton, I know you have views on this subject 
and I look forward to hearing from you much more on that.
    Chairman LoBiondo and I have a record of working together 
to improve safety and efficiency. And as the chairman enters 
the last year of his distinguished career in Congress, I look 
forward to continuing that work and moving the needle further. 
Again, Mr. Chairman, I thank you and I look forward to hearing 
from our witnesses.
    Mr. LoBiondo. Thank you, Rick.
    Chairman Shuster?
    Mr. Shuster. Thank you, Chairman LoBiondo. And I want to 
associate myself with the remarks made by both Ranking Member 
Larsen and LoBiondo. I share their observations, views, and 
concerns about safety in the air.
    I also want to echo Chairman LoBiondo's thanks to the 
Colgan Air families for being here today, and your continued 
engagement in safety in our aviation system.
    As pointed out many times, the United States has the safest 
aviation system in the world. That can never be taken for 
granted. It comes at a cost, it comes from hard work by the air 
traffic controllers, the flight attendants, the pilots, and the 
companies that all engage and work every day to make the system 
as absolutely safe as possible. So I want to thank them for 
that. But it will take all of us working together, Congress 
included, and the administration, to make sure that we have the 
gold standard. And safety is our highest priority.
    And, with that, I yield back.
    Mr. LoBiondo. Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman. In the 3 years since 
we last held an oversight hearing on safety in this committee, 
there have been 90 accidents involving commercial carriers. 
Thankfully, none of those were fatal. But still, there are a 
number of concerns.
    In December, in my State, a SkyWest plane on approach to 
Medford went way below minimums and almost crashed into terrain 
before they did an evasive climb. Five days later, up in 
Washington State, a Horizon Air plane landed on the taxiway in 
Pullman. And in July an Air Canada A320 nearly landed on top of 
five jetliners with more than 1,000 people on board waiting to 
take off in San Francisco.
    In view of this, Representatives Larsen, DeSaulnier, and I 
have requested the GAO review safety in the runway environment. 
These sort of incidents are not acceptable. And luckily, thus 
far, they haven't caused fatalities. But they could in the 
future.
    I have also raised questions about the evacuation 
standards. We are now--as they jam more and more and more and 
more seats into airplanes, we are not actually physically 
testing the evacuation standard any more. They use computer 
modeling. And I have asked for an investigation of whether that 
is adequate.
    I mean we had one example--and this was a plane that 
doesn't have the more and more and more jammed-in seats, it was 
a 767 at O'Hare--when it took the passengers 2 minutes and 21 
seconds to exit a burning aircraft, as opposed to 90. Imagine 
if that had been one of these low-budget airlines, where you 
can barely get your knees in between the seats, given the 
reduction in pitch.
    You know, we are not going to dictate comfort, but we can 
certainly be concerned about safety. It took me 7 years to get 
a rule to get the overwing exit spacing after that horrible 
fire, where people were burned up trying to get out of a plane 
in Manchester, England. It took them 6 months. We can't be 
complacent about these kind of things.
    For more than--just about a quarter of a century--since I 
had a certified mechanic working on my staff, I have been 
pursuing the whole issue of unapproved parts with the FAA. We 
are going to have the IG report soon, and we have not yet 
tightened up the way we need to tighten up, in terms of 
certifying SUPs [suspected unapproved parts].
    I had the bizarre and absurd argument when I was pushing 
this issue before that if you take a life-limited part that 
could be burnished up to look kind of like new, but was only 
good for scrap, that you couldn't require that it be shredded 
or otherwise indelibly damaged, because it is a property right.
    And I said, ``Well, if the only value is scrap, and they 
are not going to try and sneak it back into the chain by 
burnishing it up, what is the property right that we are 
protecting here?''
    And apparently some airlines are catastrophically 
destroying the parts. My staff witnessed United Airlines doing 
that in San Francisco. But others aren't. And you have got to 
wonder what happens to those parts, which could very easily 
take down a plane. And we have got to get that resolved.
    After the ValuJet crash, my amendment, which I had offered 
a number of times over the years, to strip the FAA of its 
promotional duties and say they should focus on safety issues, 
was rejected in the FAA bill that year and was not in the 
Senate bill. But after the ValuJet crash they called me up and 
said, ``Where would we put this in the bill?''
    I said, ``Well, it is not conferenceable. Wasn't it out of 
the bill? You rejected it.'' Well, most of it ended up in the 
bill in the end, but we still have progress to make there, in 
terms of FAA oversight.
    As was noted by Ranking Member Larsen, we have the 
strongest pilot training rules in history. Unfortunately, it 
took a horrific accident to get to that point, and now there is 
tremendous pushback on that. But when you look at the first 
officer in that case living in her parents' basement, commuting 
across the country because she was earning $15,800 a year, but, 
you know, had probably spent a couple of hundred thousand 
dollars to get her license, they say, ``Oh, that is--we have 
got a horrible shortage here.'' Well, market forces are 
starting to work. Some of these airlines are having to raise 
their salaries.
    Yes, you are going to have a shortage if you try and pay 
them less than a Greyhound busdriver when they paid a quarter 
million bucks to get the certificate to fly the plane. I have 
yet to meet a person in the air that says, ``Geez, if I could 
have got $10 off, I would be happy to have someone who has 250 
hours in the front seat.'' Huh-uh, I don't think so. There is 
some pushback here that has got to be dealt with.
    And then drones. Congress, rather stupidly, adopted an 
amendment in the FAA bill restricting the FAA regulation of 
drones flown by recreational users because the model airplane 
people objected. Well, now there are hundreds of thousands of 
these things out there with people who have been interfering 
with firefighting, they have flown one into a helicopter. We 
have had many near misses with jetliners.
    Finally, FAA, 2\1/2\ years ago, I said, ``Could you figure 
out what happens when a drone hits a plane?'' And their first 
studies are it can cause catastrophic damage because these are 
brittle and hard. And they haven't even done the engine test 
yet, sucking one in and see whether we have an uncontained 
explosion of the engine.
    So, we have got to change that, and we have got to get a 
handle on these recreational drones before they take down a 
commercial airliner and kill people. A lot of work to do.
    Thank you for holding the hearing, Mr. Chairman.
    Mr. LoBiondo. Thank you, Peter, and I want to thank our 
witnesses today.
    We have Mr. Ali Bahrami, Associate Administrator for 
Aviation Safety for the FAA; Mr. Akbar Sultan, Deputy Director 
of the Airspace Operations and Safety Program at NASA; Mr. John 
DeLisi, Director of the Office of Aviation Safety of NTSB; Mr. 
Matthew Hampton, assistant inspector general for aviation 
audits in the Office of Inspector General of the U.S. 
Department of Transportation; and Captain Tim Canoll, president 
of the Air Line Pilots Association.
    I would like to remind and ask each of our witnesses to do 
your best to limit your opening remarks to no more than 5 
minutes.
    Mr. Bahrami, you are recognized for your opening statement. 
Welcome.

TESTIMONY OF ALI BAHRAMI, ASSOCIATE ADMINISTRATOR FOR AVIATION 
 SAFETY, FEDERAL AVIATION ADMINISTRATION; AKBAR SULTAN, DEPUTY 
  DIRECTOR, AIRSPACE OPERATIONS AND SAFETY PROGRAM, NATIONAL 
 AERONAUTICS AND SPACE ADMINISTRATION; JOHN DELISI, DIRECTOR, 
   OFFICE OF AVIATION SAFETY, NATIONAL TRANSPORTATION SAFETY 
  BOARD; MATTHEW E. HAMPTON, ASSISTANT INSPECTOR GENERAL FOR 
 AVIATION AUDITS, OFFICE OF INSPECTOR GENERAL, U.S. DEPARTMENT 
OF TRANSPORTATION; AND CAPTAIN TIM CANOLL, PRESIDENT, AIR LINE 
               PILOTS ASSOCIATION, INTERNATIONAL

    Mr. Bahrami. Thank you, Mr. Chairman. Chairman LoBiondo, 
Ranking Member Larsen, members of the subcommittee, thank you 
for inviting me to appear today to discuss the current state of 
aviation safety.
    We are proud to say we are in the safest period in history. 
We have achieved this record of safety by working with industry 
to identify and address risks to our system. With the support 
of this committee we have worked to take a more proactive 
approach that instills a culture of safety, both within the 
industry and inside the FAA.
    The result is the safest, largest, most complex, and most 
efficient air transportation system in the world.
    There has not been a fatal U.S. commercial passenger 
accident since 2009. Last year we had the safest year ever for 
general aviation. All of us at the FAA are proud of the hard 
work that has gone into providing a basis for achieving this 
level of safety.
    A number of initiatives led to this safety record, and I 
will discuss a few of them this morning. We are actively 
facilitating policies and management processes that transform 
safety culture, both within the FAA and outside organizations.
    For example, we are restructuring the Flight Standards 
Service. This organization plays a vital role in the safety of 
the U.S. aviation system. We want to make sure we continue to 
provide a high level of service. By moving away from our 
organizational structure based on geographical locations to one 
built around functions, these changes enable flight standards 
to operate with greater accountability, better use of 
resources, and flexibility to adapt to change.
    The FAA expects the restructuring to yield benefits to both 
the agency and aviation community by improving our ability to 
keep pace with changes in the aviation industry. In the area of 
aircraft certification, the FAA has gone beyond the reforms 
that Congress directed in the FAA Modernization and Reform Act 
of 2012. We are transforming our aircraft certification service 
to meet the demands of today's dynamic aviation environment. 
Refreshing the certification strategy means FAA will take a 
systems approach, allowing us to focus on areas of higher risk.
    The impressive gains in safety are due, in part, to 
voluntary actions by industry and Government. The work of CAST, 
the Commercial Aviation Safety Team, has been extremely 
successful. It has moved beyond the historic approach of 
examining accident data to a more proactive approach that 
focuses on detecting and mitigating risks. Today, using a 
disciplined, data-driven approach, we strive to identify 
hazards before accidents or serious incidents occur. Together, 
Government and industry have adopted nearly 100 voluntary 
safety enhancements.
    We also are expanding this type of cooperation in the 
general aviation community. Together we have been working 
toward a goal of 10 percent reduction in the fatal GA accidents 
by the close of fiscal year 2018. I am pleased to say we 
already surpassed that goal.
    Before I conclude my remarks, I would be remiss if I did 
not acknowledge the support of Chairman Shuster and 
subcommittee chairman Mr. LoBiondo.
    You have been instrumental in providing the FAA with the 
direction and necessary resources to maintain our position as 
the global leader in aviation. Your guidance and insight have 
made a difference in aviation, both here and abroad.
    This concludes my statement. I will be happy to answer any 
of your questions at this time.
    Mr. LoBiondo. Thank you, Mr. Bahrami, for your statement.
    Mr. Sultan, you are recognized for your statement.
    Mr. Sultan. Thank you, Mr. Chairman. Chairman LoBiondo and 
Ranking Member Larsen, Chairman Shuster of the committee, 
Ranking Member----
    Mr. LoBiondo. Excuse me, can you pull your mic a little bit 
closer?
    Mr. Sultan. I apologize. Chairman LoBiondo and Ranking 
Member Larsen, Chairman Shuster and Ranking Member DeFazio of 
the committee, and members of the subcommittee, thank you for 
this opportunity to appear before you today to testify on 
NASA's aviation safety research.
    NASA has made decades of contributions to aviation. Every 
U.S. aircraft and U.S. air traffic control facility has NASA-
developed technology on board. NASA has worked with FAA and 
industry on the long-term research to produce information and 
technologies to fundamentally solve aviation risks.
    For example, in the 1980s, NASA initiated research efforts 
associated with synthetic and enhanced vision systems to allow 
aircraft to land in low-visibility conditions. Today a large 
number of aircraft offer these capabilities and multiple 
manufacturers have developed systems for tablets that can be 
used on board general aviation aircraft.
    Another good example from the late 1970s was NASA research 
that led to the identification of cultural norms within the 
aviation community that resulted in increased vulnerability to 
crew communication errors. NASA developed training methods and 
technologies, techniques to support improved Crew Resource 
Management, or CRM. Since then, CRM has become a global 
standard with training requirements mandated by the FAA, ICAO, 
and EASA, the European Aviation Safety Agency.
    Now, as we look forward, aviation is on the verge of a 
significant transformation with a rapid evolution of new 
technologies, vehicles, and operations on the horizon, while 
retaining the high standards for safety to which we are 
accustomed. Maintaining a safe system will require recognition 
and timely mitigation of safety issues as they emerge before 
they become hazards or lead to accidents. A shift toward 
proactive risk mitigation will become critical to meet these 
needs.
    In collaboration with the aviation community, NASA has 
developed a vision for safety assurance that is achieved by 
leveraging growing sources of aviation data, commercial data, 
analytics methods, architecture, and innovative things to 
enable monitoring, prediction, and prognostics capabilities.
    In addition, NASA is addressing difficulties associated 
with assuring the safety of increasingly complex and autonomous 
aviation systems. NASA is developing improved methods, tools, 
and guidance to support cost-effective verification and 
validation and certification of software-intensive and complex 
systems.
    NASA contributes to the Commercial Aviation Safety Team, or 
CAST, Aviation Safety Reporting System, otherwise known as 
ASRS, and Aviation Safety Information Analysis and Sharing, 
also known as ASIAS.
    NASA has delivered technologies to prevent loss of airplane 
state awareness, and is currently completing the research and 
development of cockpit systems with predictive algorithms to 
alert pilots, models for aircraft stall performance to improve 
fidelity of training environments, and specific flight crew 
training methods.
    Special attention is being directed toward assuring safety 
of emerging operations, such as unmanned aircraft. Ongoing 
research is dedicated to understanding hazards unique to these 
vehicles and identifying data needs associated with monitoring 
such operations for potential risks.
    Specifically, NASA's UAS [unmanned aircraft systems] in the 
NAS [National Airspace System] project may enable routine 
access to larger UAS and to regular controlled airspace by 
delivering data to RTCA rulemaking committees.
    In addition, NASA's UTM [UAS Traffic Management] research 
project may enable beyond-visual-line-of-sight access by small 
UAS to the uncontrolled low-altitude airspace below 400 feet 
through technology demonstrations to validate operational 
concepts.
    NASA is building on a long history of conducting research 
that advances state-of-the-art technologies to reduce the risk 
of flying in hazardous conditions. The phenomena that creates 
engine icing issues is not well understood. NASA has conducted 
flight tests to better characterize the environment, and has 
emulated these conditions in a ground facility that has already 
proven to be very beneficial to industry.
    NASA and FAA have established Research Transition Teams, or 
RTTs. The RTTs have been a best-practice mechanism between NASA 
and FAA in ensuring effective coordination in transition of 
research to implementation. Through the RTTs, NASA works 
jointly with FAA's William J. Hughes Technical Center on joint 
simulation and testing of assurance tools to help FAA assess 
aviation systems.
    NASA has a long and successful history of aviation safety 
research that has made a real difference in the remarkable 
safety record that our system enjoys. And we are constantly 
looking for ways to continue to contribute, with a major 
emphasis on more prognostic approaches that will allow the 
aviation community to get out in front of issues before they 
become safety risks.
    Let me conclude by thanking you again for this opportunity 
to appear before you to discuss NASA's research and to answer 
any of your questions.
    Mr. LoBiondo. Thank you.
    Mr. DeLisi?
    Mr. DeLisi. Good morning, Chairman LoBiondo, Ranking Member 
Larsen, and members of the subcommittee. Thank you for inviting 
the National Transportation Safety Board to testify before you 
today.
    The NTSB is an independent Federal agency charged by 
Congress with investigating every civil aviation accident in 
the United States, and issuing safety recommendations aimed at 
preventing future accidents. We investigate about 1,300 
accidents per year.
    The U.S. aviation system is experiencing a record level of 
safety. Since the crash of Colgan Air flight 3407 in 2009, 
there have been no passenger fatalities on board U.S. part 121 
air carriers providing scheduled service.
    However, there were 412 aviation deaths in 2016; 386 of 
those fatalities occurred in general aviation accidents, and 26 
occurred in part 135 commercial operations. Although we would 
all like to see no fatalities, the good news is that the 
general aviation accident rate fell below one fatal accident 
per 100,000 flight hours for the first time in the NTSB's 50-
year history.
    The number one cause of general aviation accidents 
continues to be loss of control in flight, leading the Board to 
place this issue on our current most wanted list of 
transportation safety improvements. We are working with 
stakeholders to increase awareness, education, and training to 
address the risk of these events. In April we will hold a 
roundtable with industry and Government experts to discuss 
technologies and training to combat loss of control.
    I want to highlight several accidents we have investigated 
in the last 2 years that have raised safety issues.
    In 2016 the deadliest U.S. aviation accident in almost a 
decade occurred in Lockhart, Texas, when a commercial hot air 
balloon pilot and his 15 passengers died when the balloon 
struck power lines. The investigation found that the pilot had 
been previously diagnosed with medical conditions known to 
cause cognitive deficits, and had taken a number of impairing 
medications. However, commercial balloon pilots are exempt from 
the requirement to hold a medical certificate. The NTSB 
recommended that the FAA remove that exemption.
    In July 2015 a helicopter crashed after takeoff in Frisco, 
Colorado. The pilot was fatally injured, and the other two 
occupants were seriously injured. We found that the impact 
forces of the accident were survivable. However, the post-crash 
fire contributed to the severity of the injuries. The NTSB made 
recommendations that continue to push for the installation of 
crash-resistant fuel systems in helicopters.
    In November 2015, a part 135 air taxi crashed on approach 
to Akron, Ohio, and all nine people on board died. We found 
that the flight crew failed to follow a number of company 
standard operating procedures, and operated the airplane in an 
unsafe manner. However, the airplane was not equipped with any 
type of recording device that would have allowed for the 
company to monitor daily operations and identify deficiencies 
such as noncompliance with procedures. As a result, the NTSB 
recommended that all part 135 operators install flight data 
recording devices capable of supporting a flight data 
monitoring program.
    In October 2016, an American Airlines flight experienced an 
engine failure and caught fire during takeoff at Chicago O'Hare 
International Airport. Although everyone evacuated the airplane 
with only one serious injury, our investigation found that the 
evacuation was hindered by a lack of communication between the 
flight deck and the cabin crew, as well as by numerous 
passengers retrieving their carry-on baggage.
    In July an Air Canada flight was cleared to land on runway 
28 right in San Francisco International Airport, but instead 
lined up on a taxiway where four air carrier airplanes were 
awaiting their takeoff clearance. The flight descended below 
100 feet before executing a go-around as it overflew the other 
aircraft on the taxiway. We are continuing to investigate this 
incident.
    Advances in aviation technology, such as unmanned aircraft 
systems, are posing new safety challenges. The NTSB just 
completed the first investigation of an incident resulting from 
a mid-air collision between an aircraft and a drone, which 
occurred near Staten Island, New York, in September. The drone 
pilot intentionally flew his drone far beyond visual line of 
sight and was unaware that it had impacted the helicopter.
    Thank you again for the opportunity to be here today to 
discuss the work that the NTSB is doing to investigate 
accidents and make aviation safer. I will be happy to answer 
any questions.
    Mr. LoBiondo. Thank you, Mr. DeLisi.
    Mr. Hampton, welcome.
    Mr. Hampton. Thank you. Chairmen Shuster, LoBiondo, Ranking 
Members DeFazio, Larsen, and members of the subcommittee, thank 
you for inviting me to testify today on aviation safety.
    As the committee is well aware, FAA and the industry have 
achieved a remarkable and impressive safety record. My 
statement today will address the key aviation safety challenges 
that were highlighted in our recent report on the top 
management challenges facing the Department.
    First, regional airlines now serve about 20 percent of all 
airline passengers, rely on a unique business model, and 
operate in a highly competitive environment. Our work shows 
that FAA can provide better guidance and tools to its 
inspectors so they can proactively identify risks due to 
changes at airlines and adjust oversight accordingly.
    For example, FAA's main risk-assessment tool does not yet 
account for severity of risks such as key staff turnover or 
rapid service expansion.
    Second, addressing concerns about suspected unapproved 
parts, or SUPs. As we recently reported, FAA lacks the 
mechanisms needed to have a full and complete picture of risks 
with unapproved parts throughout the industry. For example, we 
found multiple inaccuracies in the database FAA uses to capture 
such cases, and the agency does not ensure all reports of 
suspected unapproved parts from its local inspection offices 
make it to the central hotline office at headquarters.
    Furthermore, once unapproved parts are identified, FAA does 
not take action to confirm that airlines and repair stations 
actually take them out of the supply chain. We recently learned 
that FAA closed one case, but we are looking into how the parts 
actually made it back into the supply chain.
    Third, we are concerned about the number of close calls in 
the air and the ground at the Nation's airports. This includes 
the Air Canada flight 759 incident at San Francisco Airport 
last summer, which the safety board is currently investigating. 
Our work focuses on runway incursions, which have seen an 
overall increase.
    FAA has taken several efforts over the last decade to 
address runway safety issues. Our results thus far show that 
FAA has made progress on educating pilots on visual aids at 
high-risk airports and communicating more with the aviation 
community. However, FAA faces challenges with other 
initiatives, including some new technologies that were very 
promising. The key to addressing the upward trend in recent 
incidents is for the industry to continue setting priorities 
and measuring the effectiveness of initiatives. History has 
shown that FAA can, with sustained attention, successfully 
address runway safety issues. But a sense of urgency is needed 
at FAA.
    Finally, UAS presents one of the most vexing and rapidly 
evolving safety challenges FAA has faced in decades. As UAS 
operations have increased, so too have sightings and concerns 
by pilots and others, with over 2,100 events reported in 2017. 
We are currently assessing FAA's efforts to grant waivers, a 
process the agency established to accommodate some high-value 
operations not covered in the small UAS rule published in 2006. 
FAA has received more than 15,000 applications for waivers to 
date. Thus far, the agency has granted about 1,500 of them, 
most of them for nighttime operations.
    There are over 6,500 applications still pending review, and 
the backlog continues to grow. FAA is working on rulemaking for 
expanded UAS operations, but these are complicated endeavors, 
and it is unclear when they will be completed.
    Our work shows that FAA can take steps now to advance 
elements of a risk-based system for UAS. This includes, among 
other things, completing a comprehensive system to track and 
analyze UAS sightings, and giving inspectors more guidance and 
information. Also, FAA is reaching an inflection point, where 
education must give way and be bolstered with more effective 
oversight and enforcement.
    Mr. Chairman, that concludes my statement. I would be happy 
to answer any questions you or any members of the subcommittee 
may have.
    Mr. LoBiondo. Thank you, Mr. Hampton.
    Captain Canoll, you are welcome.
    Mr. Canoll. Thank you and good morning, Chairman LoBiondo 
and Ranking Member Larsen and the subcommittee for the 
opportunity to be here today.
    Chairman LoBiondo and Chairman Shuster, this may be my last 
time testifying before both of you. On behalf of ALPA's more 
than 60,000 members, please let me express our sincere 
appreciation for your leadership in advancing aviation safety.
    I have been an airline pilot for 28 years. I keep current 
and I fly the MD-88 as often as I can. I am also proud to have 
served in the United States Navy Reserve as an F-18 strike 
fighter squadron commanding officer. And I can tell you, after 
flying for more than three decades, that experience counts when 
operating complex equipment in a changing environment. So does 
constantly maintaining and sharpening your skills and judgment 
through training.
    Flying experience enables pilots to learn how to gather 
information through their senses about their environment and 
their aircraft. It cannot be simulated in training. It is 
learned only from time spent at the controls. The examples of 
the value of real-world experience are almost infinite. An 
airline pilot might encounter multiple aircraft talking on the 
radio at the same time, unexpected turbulence, or an engine 
malfunction, or all three at once. Today's simulators simply 
can't replicate the complexity of commercial flight. Real-world 
experience is essential.
    ALPA pilots know this, know that this subcommittee 
recognizes the value of flight experience, qualifications, and 
training for airline pilots. You led Congress in passing the 
Airline Safety and FAA Extension Act of 2010, the set of 
regulations that resulted in improved pilot training and 
updated certificate and type rating requirements. The results 
speak for themselves.
    In the 20 years prior to the congressional action, more 
than 1,100 passengers lost their lives in U.S. part 121 airline 
accidents. Since Congress acted, that number has been reduced 
to zero.
    ALPA is aware that some believe we can reduce training 
hours, substitute simulator or unstructured class time for 
experience, and still keep our skies safe. To put it plainly, 
we disagree. The current system allows for credit hours for 
different levels of training and experience. This system is 
working. It is keeping our passengers, crews, and cargo safe.
    Let me be clear. No one is more committed than ALPA to 
ensuring that we have enough pilots to keep the U.S. airline 
industry strong and competitive. Today we have more fully 
qualified pilots than there are commercial positions available 
in this country. But how do we make sure we have the pilots we 
will need in the future?
    One important element is protecting our industry safety 
record. Our union is helping lead the way. For example, we are 
pushing to do more to safeguard the transportation of lithium 
batteries by air. For similar reasons we are also working to 
eliminate the risk of undeclared dangerous goods.
    In addition, ALPA is driving hard to reduce the safety 
threat from unmanned aircraft systems. We commend recent action 
by Congress to enable the FAA to require UAS operators to be 
registered. This allows us to locate responsible individuals, 
if needed. But we also must fix the loophole that prevents the 
FAA from regulating UAS used by hobbyists. Congress must repeal 
section 336 of the FAA Reauthorization Act of 2012.
    Attracting new pilots to our industry in the future also 
means that U.S. airlines must offer aviators good salaries, a 
healthy work-life balance, and a predictable career 
progression. And there is more we can do.
    For example, we can reform the Federal student loan 
programs to encourage young people to pursue our profession. 
Our industry can also step up efforts to reach new audiences 
and inspire them to work in aviation. At ALPA, we are building 
on decades of outreach to students of all ages. Hundreds of 
ALPA volunteers visit schools every year, and we have helped 
launch Aviation Works 4U, a one-stop shop website for exploring 
a career in our industry.
    We are also focused on doing more to provide reliable air 
service to communities all across America, including in rural 
areas. With safety always the priority, there is more work to 
be done there, too.
    I hope you share my optimism today as we consider the U.S. 
airline industry's incredible safety record. Take it from us, 
your pilots, experience saves lives. We look forward to working 
with this subcommittee to make aviation even safer. And I would 
be glad to take any questions that the subcommittee has.
    Thank you, sir.
    Mr. LoBiondo. Thank you, Captain.
    Chairman Shuster?
    Mr. Shuster. Thank you very much, Mr. LoBiondo. My question 
is directed at the NTSB, the FAA, and NASA, and it is 
concerning space and travel--space travel.
    I watched a couple weeks ago the Falcon Heavy take off, and 
Elon Musk said it was a 50/50 chance it was not going to 
succeed, and it did. It was quite impressive. But as we saw 
last year, there were 18 launches into space. This year they 
are projecting 20. And I have seen estimates that in the next 
several years it could be 100, over 100 launches every year, 
and that is critical, with the FAA, NASA--coming to work 
together to make sure that the airspace is safe.
    And so, just wanted to first ask, starting probably with 
NASA, how has your relationship been with the FAA? And then, 
from there, move to FAA, but also then to--and the NTSB and 
talk about how do we--how do you investigate and how has it 
worked with these two other agencies when you go there?
    So, Mr. Sultan, if you would be----
    Mr. Sultan. Thank you for the question. In regards to a 
relationship between NASA and FAA, I would describe it as it 
has been the closest it has ever been. We work very well, and 
this is the best in the history that we have ever worked 
together.
    Currently between the two agencies, we have established 
these--we call them the RTTs, the Research Transition Teams.
    Mr. Shuster. Can you move your mic a little closer to you?
    Mr. Sultan. Yes.
    Mr. Shuster. That whole box will shift. There you go.
    Mr. Sultan. Thank you. Between the two agencies we have 
established these RTTs. We call them the Research Transition 
Teams. And right now we have six of them active on very 
specific, unique, and tangible products that the two agencies 
cooperate, and what we are doing is making sure that the work 
that we do as a research is, first, well coordinated with the 
implementing agency so that it is put on their implementation 
timeline well before we do the handoff, and then FAA knows 
actually what to do with it, and also do the implementation.
    Furthermore, at the executive level, we hold, you know, 
extensive quarterly meetings. This is at Associate 
Administrator levels between the FAA's AVS [Aviation Safety] 
group, Air Traffic Organization, the NextGen Office, as well as 
international environment and energy, where the Associate 
Administrators do coordinated work to make sure that our 
efforts are fully aligned with each other's needs.
    Mr. Shuster. So the bottom line is it has--from your point 
of view, it has been working extremely well.
    Mr. Sultan. Absolutely.
    Mr. Shuster. All right. And Mr. Bahrami?
    Mr. Bahrami. Mr. Chairman, let me highlight what you 
already mentioned, which is the increased number of launches. 
And one of the issues that we are taking very seriously is 
collaboration with other Government agencies that have 
tremendous experience, including NASA.
    And on the other part of the work that we are doing is a 
thorough risk assessment prior to each launch, and using the 
expertise that we have in-house, and using the safety 
management principles to make sure, in the event we have an 
issue that we are protecting other aircraft and vehicles in the 
airspace.
    So, as was mentioned by Mr. Sultan, we have a good working 
relationship, we continue to work together and improve things 
as we move forward.
    Mr. Shuster. Thank you. And Mr. DeLisi, if you could, also 
just comment on what you have seen in the interaction and then 
investigations and how you would operate in that environment.
    Mr. DeLisi. Sure, thank you. Commercial space is certainly 
a game changer. It is something that didn't exist when our 
agency was founded, but we stand at the ready now to 
investigate the commercial use of space.
    A few years ago we completed the investigation of the 
Virgin Galactic scaled composite SpaceShipTwo fatal accident. 
It was our first fatality involving a commercial space vehicle. 
But we have a relationship with the FAA's Office of Commercial 
Space Transportation, and our party process allowed us to form 
an investigation using our normal procedures, making some 
recommendations to both the FAA and the Commercial Spaceflight 
Federation regarding the design of the cockpit switchology in 
commercial space vehicles.
    One big difference, however, would be the definition of an 
accident. For a commercial space vehicle that carries a command 
destruct system, we would not consider it to be an accident if 
a launch were going off target and a command destruct were 
initiated. As long as the debris fell in the cleared area, that 
would be--the substantial damage to the vehicle would not 
trigger an NTSB investigation. We would only get involved if 
there were fatalities or debris that ended up outside the 
expected pattern.
    Mr. Shuster. Well, thank you. My time has expired, but I 
think we got to watch this very closely, because we are going 
to see more and more of this, and making sure, from a policy 
standpoint, that the right agencies are in the right place 
making these decisions, and not trying to set up new and 
different agencies that don't have the experience that you 
three do. So thank you very much.
    Mr. LoBiondo. Peter?
    Mr. DeFazio. Well, and talking about agencies that don't 
have experience, we have the Pipeline and Hazardous Materials 
Safety Administration, so-called, as the principal regulator of 
lithium batteries on commercial aircraft. Now, isn't that 
interesting? And that is, you know, at the behest of this 
administration.
    And then, of course, Congress has prohibited the regulation 
of lithium batteries beyond any weak rules that ICAO might 
adopt, which doesn't seem really wise to me--Captain Canoll, 
you obviously raised this concern, and you certainly know that 
UPS flight 1307 in 2006, UPS flight 6 in 2010, and Asiana 
Airlines cargo flight 991 in 2011 all were destroyed because of 
lithium batteries.
    Now, is there anybody on this panel who thinks that 
Congress should prohibit the FAA from investigating the dangers 
of lithium batteries, and proposing more stringent regulations 
than those adopted by the international consensus authority, 
ICAO? Anybody want to raise your hand, say that that is a 
prudent thing we are doing here?
    OK, thanks.
    How about the other prohibition that Congress has adopted 
because of the clout of the model aircraft lobby? Now, I know 
model aircraft operators, people--I used to build little planes 
when I was a kid. My brother did, too. You know, they are 
generally responsible, knowledgeable people.
    But there's a few hundred thousand of them, and there are 
now millions of people with these little, crappy recreational 
drones flying around, and we have already talked about those 
problems. Anybody on the panel want to raise their hand and say 
that we, Congress, should continue to restrict the FAA from 
regulating beyond ``we are going to educate you'' about where 
you should fly your drone?
    Anybody want to raise their hand on that one?
    OK, well, maybe----
    Mr. Bahrami. Mr. DeFazio, may I make a comment on that?
    Mr. DeFazio. Yes.
    Mr. Bahrami. Absolutely. We agree that something needs to 
happen to give us better control of the situation.
    And we also want to acknowledge that the work that modelers 
are doing from the perspective of STEM and promoting aviation 
within the younger generation is really important. And as we 
move forward, it is very important that we work with you and 
your staff to find out what is the best way to go forward.
    I absolutely agree with you; we need to do something. And I 
do not know what that is at this point. But we are certainly 
willing to work with you to make that happen.
    Mr. DeFazio. Right. Well, we had that core challenge, and 
now we can't even require registration and/or licensure for 
these things. I mean in my hometown someone was using a UAS as 
a peeping Tom device and someone managed to bring it down. But, 
of course, we have no idea who it belonged to, because we can't 
trace them back. It seems to me that is pretty minimal, that we 
would require, you know, that they be registered and/or 
potentially licensed.
    I want to go back to the suspected unapproved parts. Mr. 
Hampton, I mean I have been working on this for so many years. 
And you mentioned at the end something that--it was something 
about the--I don't think it was in your testimony, exactly, 
about some--a SUP that got back into the supply chain that is 
being investigated.
    Mr. Hampton. Yes. Thank you for the question, Mr. DeFazio. 
During the course of our review there was a case. A gentleman 
put a number of parts, 65,000 Boeing parts, on the internet. 
And FAA investigated it and found out that he was not going to 
sell 65,000 parts. And we thought it was taken care of, and the 
issue was put to bed.
    We subsequently opened another case, and we are looking 
into it. It appears they have now been reintroduced into the 
supply chain, and we are going to find out what happened to 
those parts.
    So, it is a perfect example. It is not just the instance of 
what happens to a suspected unapproved part, but it has to be 
taken out of the supply chain. The problem is, as you well 
know, in many of the cases, a suspected unapproved part doesn't 
affect civil aircraft, it can affect a military aircraft. Some 
aircraft, like in the Boeing series, can go back and forth to 
military and civilian fleets.
    So the trick there is--and it is very important--to make 
sure they don't make their way back into the supply chain. 
Because you know the term ``pedigree of the part,'' once it is 
back in, it is very hard to trace.
    So we will keep the committee apprised. We are trying to 
figure out what happened. We don't know exactly whether these 
things will be used in an aviation mode; we just don't know. 
But we are concerned about that. And that illustrates the 
importance. And we have an open recommendation: FAA is 
finalizing how they will get their inspectors to make sure that 
the parts are actually taken out of the supply chain.
    Mr. DeFazio. How about we all follow the United Airlines 
model and they are shredded? I mean I have never understood 
this property right argument that, gee, well, I don't know, 
maybe somebody wants to take this part that could be burnished 
up to look like brandnew, and turn it into a lampholder. And 
so, therefore, it is more valuable than scrap metal. So gee, 
you know? But I mean what is the deal? Seriously.
    Mr. Hampton. We understand that FAA can't destroy it, but 
they have to have the person who is in possession of it take 
care of it and destroy the part. But your point is well taken. 
And that is the importance of getting rid of the part actually 
out of the supply chain.
    Mr. DeFazio. OK. Thank you. Thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you. Captain Canoll, ALPA has endorsed 
the 21st Century AIRR [Aviation Innovation, Reform, and 
Reauthorization] Act, and has said that the bill improves the 
safety of our transportation in the United States. Can you tell 
us how you believe that will happen, and why it does improve 
safety?
    Mr. Canoll. So the act, in general, has many provisions 
that would enhance safety, one being the enhancement to our 
voluntary reporting systems, which--a lot of our improvements 
recently have been based upon the concept that voluntarily 
disclosing a problem in the system and, in return receiving a 
level of immunity, has given us a volume of information far 
beyond what we had before to anticipate problems before they 
actually occur in the system.
    We can see a particular airport, for example, has higher 
examples or higher incidents of unstable approaches. Then we 
can modify our training syllabus to address that particular 
approach so that the fleet of aircraft and pilots out there 
operating to that airport know that that is a known hazard and 
have been trained to deal with it. That is one example. The----
    Mr. LoBiondo. Can you--excuse me. Can you address how ALPA 
believes that the air traffic control reform and modernization 
contributes to the improvement of air safety?
    Mr. Canoll. So, in all proposals with regard to reform of 
the ATC system, we approach it incrementally. And the first 
step is an analysis of: is the proposal deemed to provide an 
equivalent level of safety that we have today, which, of 
course, as we all know, is extremely high. Our analysis of this 
proposal that is currently in the House does just that, it does 
provide an equivalent level of safety that we are experiencing 
today, a very high one.
    Mr. LoBiondo. Thank you.
    Mr. Sultan, can you describe how NASA uses Research 
Transition Teams to hand off NASA aeronautical research at the 
FAA Technical Center?
    Mr. Sultan. So the hand-off occurs to multiple 
organizations within the FAA. What we do is we work jointly 
with the FAA Tech Center in New Jersey on the simulations and 
the evaluation of and validation of the concepts in an 
integrated fashion with the real-world systems. So the tech 
center offers us that unique capability.
    Likewise, on the systemwide safety assurance RTT, we work 
jointly with the FAA Tech Center researchers on the V&V of 
complex and software-intensive systems in developing algorithms 
and testing those algorithms in order to help certify and speed 
up the certification process of software-intensive systems.
    Mr. LoBiondo. OK, thank you very much.
    Mr. Larsen?
    Mr. Larsen. Thank you, Mr. Chairman.
    Captain Canoll, would you support the FAA reauthorization 
bill that we have been discussing if the ATC privatization was 
not in it? Would ALPA support it without the ATC privatization?
    Mr. Canoll. I hadn't contemplated it, but, you know----
    Mr. Larsen. Well, contemplate it. Would you support it 
without----
    Mr. Canoll. Yes, sir.
    Mr. Larsen. Thank you.
    Mr. Canoll. We would, because it has many other factors 
that advance safety.
    Mr. Larsen. Thank you.
    Mr. Bahrami, the FAA bill--I am sorry, the FAA budget 
proposes $197 million in cuts, including $27 million to the 
FAA's operation account, $69 million to the F&E, and $101 
million to the FAA's research, engineering, development 
accounts. That is the proposal for 2019.
    What specifically would you do to ensure that these cuts, 
if enacted, would not adversely affect safety?
    Mr. Bahrami. As you know, this is not the first time we are 
faced with these types of cuts. We typically reprioritize. We 
look at the sense of urgency, we look at the type of research 
that can only be done by Government agencies, including the 
FAA, and we also try to rely on those types of researches 
happening in industry, and try to promote and advance those 
types of activities.
    And bottom line, we are going to have to reevaluate our 
work. We have to figure out where the priorities are, and fund 
those activities that are critical to our safety mission.
    Mr. Larsen. And you would choose a safety mission first, 
then?
    Mr. Bahrami. Safety mission and enabling activities. And in 
terms of enabling activities, fortunately, in a lot of areas 
industry takes the lead, and we will make sure that we can work 
with them closely in those areas.
    Mr. Larsen. Mr. Hampton, based on that, what would you 
say--it is kind of tough to pick and choose, there is plenty of 
issues that we are dealing with on aviation safety, but what 
would be the biggest threat, in the IG's view, to aviation 
safety?
    Mr. Hampton. Thank you for the question, Mr. Larsen. We 
wonder back at the IG--we talked to Mr. Scovel on what keeps 
the inspector general up at night--and I think right now the 
safety of unmanned aerial systems is the big concern. It is not 
when but if there is a collision with a commercial aircraft. 
And we just hope there are no passenger injuries or fatalities.
    That is our top safety concern, followed closely by the 
close calls at airport runways and taxiways right now.
    Mr. Larsen. Yes. And in your recommendations with regards 
to UAS, could you reiterate those recommendations?
    Mr. Hampton. Sure. Most of our recommendations focus on 
helping FAA become more risk-based and getting their 
information systems lined up: a single depository for tracking 
all their sightings; another one for getting their systems in 
place. Another one is having better guidance to their inspector 
workforce--information to better position the agency to respond 
to the impact of technology on FAA and the industry.
    The UAS is probably one of the most difficult and cross-
cutting things that is going to affect the agency. So those are 
two of the recommendations we think that they can move out 
forthwith and make some progress on.
    Mr. Larsen. Yes. Thanks.
    Mr. Bahrami, do you think the FAA has that authority to 
move forward on those particular steps, or do you think that 
you need a direction from Congress?
    Mr. Bahrami. We are working on a number of initiatives. 
When we talk about UAS and the risk of UAS in aerospace, 
basically the issue is being able to validate and verify the 
sightings. This is a huge problem. We know that we started an 
ARC [Aviation Rulemaking Committee] that looked at the ID, 
remote ID. So until such time we are able to go forward with 
that, we are going to continue to have challenges identifying 
and enforcing the rules.
    Mr. Larsen. That is fair.
    And Mr. Sultan, the role that NASA plays in developing a 
traffic management system with UAS, can you tell us where NASA 
is on timelines to get us to a point where we can start, you 
know, if you will, seeing that in the sky?
    Mr. Sultan. Thank you for the question. So we have two 
different projects. One is focused on the larger class, higher 
altitude controlled airspace access----
    Mr. Larsen. Right.
    Mr. Sultan [continuing]. And one is on the low altitude, 
below 400 feet, small UAS. In regards to the UTM, which is the 
lower altitude one, we have a set of high-fidelity field trials 
conducted almost on an annual basis, which will look at 
integration of these vehicles in higher density operations.
    So we started off with just operating in rural areas. The 
next level was with some additional, you know, people and 
objects nearby. And the third one is operating beyond visual 
line of sight with additional vehicle integrations, manned 
operations. And of course, the fourth one, which will be 
conducted in 2020, is mainly focused on dense, urban 
operations, or a simulated environment of that.
    The key is that this industry is still very much in 
infancy, in terms of the data needed in order to certify these 
vehicles and generate the regulation. So what NASA is doing in 
both of their high altitude, as well as the low-altitude UAS 
projects, is generating that data and delivering it to the FAA, 
as well as the standards organizations, such as RTCA, so that 
they can make informed decisions on what the regulations and 
certifications ought to be.
    In a nutshell, we don't know what we don't know. That is 
what it boils down to in regards to, you know, the UAS 
operations. And that is the gap that NASA is trying to fill.
    Mr. Larsen. Yes, thank you. I yield back.
    Mr. Davis [presiding]. Thank you, Mr. Larsen. The Chair 
recognizes the gentleman from California for 5 minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman. Thank you to the 
witnesses for appearing with us here today and for your 
expertise. Just a couple of things.
    Mr. Hampton, I wanted to direct to you here, I come from an 
extremely rural district in northern California, and wanted to 
see if you can update on the issue of contract towers versus 
the regular ATC towers. A 2012 study at your office had shown 
they were just as safe and effective as a regular ATC tower--
that being the contract towers.
    So, you know, it is a good cost-saving measure, it helps 
our rural airports, rural areas, to hang on much longer than if 
they had higher costs.
    And so, again, having so many rural airports in my district 
or a lot of districts like it in the West, I just wondered. 
Does that remain a priority or a good tool? Do you have any 
findings on contract towers?
    Mr. Hampton. Thank you for the question. Historically, we 
have looked at the contract tower program, and it has been a 
very cost-effective and safe program. We recently received a 
request from this committee to update our work, and we intend 
to start that assignment in the not-too-distant future and 
complete it. Probably some time next year.
    Mr. LaMalfa. Are those that are questioning them or wanting 
to do away with them, is there any movement that way you are 
aware of?
    Mr. Hampton. Not that I am aware of.
    Mr. LaMalfa. OK, good, good, just making sure you keep 
funding.
    Mr. Bahrami, do you have any input on it, as well?
    Mr. Bahrami. Sir, I just want to point out that we are 
supportive of contract towers, and we are currently revising 
our cost-benefit analysis for contract towers. And my role, my 
organization's role, is to oversee ATO. And we are making sure 
that those particular towers are safe and operating. And at 
this point I have to tell you that everything is working fine, 
and it is safe.
    Mr. LaMalfa. OK, thank you. Let me follow up on the drone 
question, as well. You know, coming back to the very rural 
needs we have, and remoteness, it is a great tool, used 
properly, for inspection of hard-to-get-at power lines and, you 
know, some roadways, or maybe under bridges. A lot of 
infrastructure, where it is a very handy tool.
    So, what are your thoughts that we can--instead of--in 
certain areas I see what the issue is. But others, we need 
expanded use of this. We need better permission to use them, 
maybe even an out-of-sight basis, as is appropriate, because we 
have a lot of issues with timber, timber that could be--you 
know, we have 129 million dead trees and counting in 
California, with the interface of that--with power lines or 
just other issues.
    So it is certainly a lot better way to keep abreast of what 
is going on with dead trees and other infrastructure issues.
    So what do you think we can do to expand the use of that, 
where appropriate, in those types of very rural situations?
    Mr. Bahrami. I fully agree with you, that we have to use a 
risk-based approach to deciding on operational applications, 
and using it in areas that are not heavily populated makes a 
lot of sense. And we are doing that. When you look at the 
process that we have in place through the waiver process under 
part 107, we have issued many waivers for those types of 
operations.
    Also, on the integration pilot program, we are soliciting 
input from those interested applicants who want to introduce 
new and innovative applications. The idea behind it is, of 
course, to continue to promote the UAS and also make sure that 
we learn from those experiences and apply it appropriately.
    Also, as I mentioned earlier, we are in the process of 
proposing a rule that facilitates operation over people and at 
night, and that will significantly reduce the number of waivers 
that we have currently in house, and working on that. Going 
forward with ID, remote ID, we could actually address the 
concerns that we have from our security partners, and we can 
move forward. All of that----
    Mr. LaMalfa. Quickly, quickly----
    Mr. Bahrami [continuing]. Is going to help.
    Mr. LaMalfa. Quickly, quick question on--just a quick one 
on do we want to have States and locals have their own sets of 
rules, or do we want to keep this kind of a more broad approach 
with one Federal jurisdiction, instead of multijurisdictions 
having their own rules?
    Mr. Bahrami. One of the important benefits of the IPP 
[integration pilot program] is to actually evaluate what needs 
to be done with the State and local authorities with respect to 
their jurisdiction, and what we can do under Federal rules and 
regulations. What we learn from that actually is going to help 
us, moving forward, with the very same issue that you 
highlighted.
    Mr. LaMalfa. OK, thank you. I appreciate----
    Mr. Davis. The gentleman's time has expired. The Chair 
recognizes the gentlelady from Texas, Ms. Johnson, for 5 
minutes.
    Ms. Johnson. Thank you very much, Mr. Chairman. I really do 
appreciate the perspectives of the--at NASA on the importance 
of aviation safety research, and the partnerships that are 
required between the Federal Government and industry.
    As ranking member of the Committee on Science, Space, and 
Technology, I believe that research is absolutely essential to 
developing unbiased practices and techniques that we can deploy 
to mitigate risk.
    Can you, Mr. Sultan, speak more to the value of these 
partnerships between the Federal Government and industry, and 
identify areas where the Federal Government could benefit from 
additional resources to address the emerging challenges in the 
aviation space?
    Mr. Sultan. Thank you for the question. So in regards to 
the partnerships between Government and industry, it is 
absolutely critical. Because for us in the NASA research, first 
of all, we use it as a guiding principle in trying to determine 
what are actually the community needs, what are the tall poles 
that the eventual users of our systems will need and will 
apply? So, getting that feedback is critical.
    In addition, as we develop these systems, it is critical to 
be able to constantly evaluate the benefits of our research 
products in the operational environments as exercised by the 
users.
    A good example I can give is, for instance, on our 
development of prognostic tools for data mining, using the data 
mining of the data that is within the ASRS data--we work 
extensively, for instance, with Southwest Airlines out in 
Dallas, where they exercise our algorithms and provide feedback 
in terms of how useful they are and what additional safety 
issues those tools and algorithms unearthed that were otherwise 
unknown. So these are kind of examples that I can provide.
    Likewise, when it comes to UAS, these small operators, they 
have tremendous capability in terms of being able to provide 
capabilities, in terms of detect and avoid and communication 
capabilities that already exist in other realms, not just 
aviation, that can be brought to bear. So we work quite 
extensively with--I mean you can look at it in terms of the IT 
sector on how far advanced certain capabilities are, and can we 
leverage those to essentially apply it towards the aviation 
community.
    Ms. Johnson. Thank you very much.
    Mr. Bahrami, we have probably the safest system in the 
world, in terms of our safety record and our complex aviation 
system. Your testimony speaks to investing in the right safety 
enhancements by aviation industry. It is my belief that 
probably Congress should not dictate whether to invest in a 
particular technology. Rather, it should encourage the FAA to 
establish technology-neutral standards for industry to pursue.
    Given that the United States has already deployed a 
comprehensive network of ground-based ADS-B receivers, and 
there is a mature ATC modernization outlined in the NextGen 
roadmap, what is the benefit of space-based ADS-B for the 
United States? And how does that benefit, compared to the 
projected cost of space-based ADS-B on the annual basis?
    Mr. Bahrami. Thank you for the question. As you know, this 
was one of the mandates, that we have to study the benefits of 
the space-based ADS-B. And that work has been going on for some 
time. And I think, once we have the information, and through 
the NextGen Advisory Committee, and recommendations that will 
come to the FAA, we will decide what we can do.
    At this point I can see how you may feel that there would 
be duplications. We already have a system in place. But until 
we have the experts taking a look at that to see if there are 
other places that we are--we do not have coverage and we could 
get that through the--space-based ADS-B, at this point I can't 
make any more comment beyond that.
    Ms. Johnson. Thank you very much. My time has expired.
    Mr. Davis. Thank you. The Chair now recognizes the 
gentleman from Michigan, Mr. Mitchell, for 5 minutes.
    Mr. Mitchell. Thank you, Mr. Chair.
    Captain, let me ask you a couple of questions, if I can, 
please. My colleague gave you an interesting question, a closed 
choice between an FAA reauthorization without ATC modernization 
of the current system, which, of course, isn't necessarily the 
choice, so I am going to ask you a different question.
    If you had the choice between the 21st Century AIRR Act 
with ATC privatization, simply FAA reauthorization without 
ATC--leaving it the way it is, or the progression it is on now, 
and the current system, which one do you want to have?
    Mr. Canoll. From a safety perspective, it is neutral for 
us. We believe that with or without the reform, we are going to 
maintain the safest system we have. If the question is not 
based on safety, we are looking at a profound need for a long-
term, stable source of funding for our air traffic control 
system. We believe the one that is being offered now will 
provide that in the current House action.
    Mr. Mitchell. Which is the 21st Century AIRR Act, correct?
    Mr. Canoll. Yes, sir.
    Mr. Mitchell. OK. Mr. Bahrami, I am confused, but I believe 
your agency actually supported the 21st Century AIRR Act, did 
it not?
    Mr. Bahrami. Administration, yes.
    Mr. Mitchell. That would be the pertinent question.
    Mr. Bahrami. Yes.
    Mr. Mitchell. Thank you.
    A question for you, if I can, Mr. Hampton, before I have to 
leave for another--quite some time ago, after 9/11, the FAA was 
directed by law to update and upgrade the identification 
process for A&P and pilots, so they had more information in 
terms of photos, biometrics to better secure access to 
airports.
    To date, to the best of my knowledge, that really hasn't 
been--let's put it this way--significantly undertaken, let's 
put it that way. And I guess--I know there is another committee 
on which I serve is going to get into detail. Can you give us 
an outline as to--I think that is a safety risk that we need to 
look at.
    Mr. Hampton. I would have to get back to you on the 
biometrics. Most of our work is focused on the updates on the 
pilot records database, which is currently underway. And we 
will get back to you on the biometrics.
    Mr. Mitchell. I appreciate--well, I appreciate that, in 
terms--and additionally, in terms of identification, their 
identification information and for A&P and mechanics, which 
appears to me to be a significant safety risk, where you have 
the ability for----
    Mr. Hampton. Absolutely.
    Mr. Mitchell [continuing]. People to access----
    Mr. Hampton. Yes, sir. We will get back to you. We focus 
mostly on the pilot records database.
    Mr. Mitchell. I appreciate that.
    Mr. Hampton. Thank you, sir.
    Mr. Mitchell. I think it is a significant safety concern we 
need to be concerned about, is the safety of our----
    Mr. Hampton. Interesting. We just had a discussion with 
another committee about that. I will get back to you, sir.
    Mr. Mitchell. Thank you, sir.
    I yield back, thank you.
    Mr. Davis. Thank you, Mr. Mitchell.
    As a followup, Captain, to Mr. Mitchell's question, you 
mentioned a stable funding source that you believe the 21st 
Century AIRR Act would provide. That stable funding source, 
would you agree, would allow more safety upgrades and 
technological upgrades, to make it safer for everybody in the 
industry?
    Mr. Canoll. I don't necessarily agree that more funding is 
going to make us more safe. I think we are safe now. The 
funding would be more along the lines of expanding and making 
it more efficient. The safety is going to be maintained. That 
is an absolute, and it is an absolute requirement. We are not 
looking for new ways to be safe. But if we are going to 
continue to have the safety we experience today with increased 
volume, which is the objective of a new system, then, yes, we 
will need more funding.
    Mr. Davis. The Chair now recognizes Ms. Brownley for 5 
minutes.
    Ms. Brownley. Thank you, Mr. Chairman.
    And Captain, I would like to also ask you a question with 
regards to pilot shortages, or not having pilot shortages. But 
we do continue to hear from our regional carriers about a pilot 
shortage, although the FAA data seems to paint a different 
picture, in that there has been a 200-percent increase in pilot 
licenses that have been issued since 2009.
    Yet we continue to hear about it, and from both large and 
small carriers leaving their market. So I was wondering if you 
could explain a little bit more in further detail about how you 
think business economics are driving airline service issues in 
smaller communities.
    Mr. Canoll. So, ma'am, you are absolutely correct. There is 
no present-day pilot shortage. The FAA data is very clear. 
There are almost two pilots for every job available out there. 
The challenge is that the industry went through a rather 
dramatic downturn in the previous 10 to 15 years, many 
bankruptcies. And it, quite frankly, wasn't a very desirable 
profession for almost an entire generation coming through.
    The good news is we have seen a turnaround in the industry, 
from a profitability standpoint. And when our employers are 
profitable, our members make more money. So that is now 
attracting a new generation of fliers. And we have seen 
enrollment at the flight schools up dramatically over the last 
2 years. We have seen the production of airline transport pilot 
and restricted airline transport pilots increase, so the trend 
is very positive on the long-term picture.
    For those who are having troubles attracting pilots today, 
they just need to look at those airlines that are not having 
troubles attracting pilots. And it is the free market at work, 
which we fully support. We fully support the activity of the 
free market. And while some are having no problems, we can see 
clearly why they pay a good wage and they have a good work-life 
balance and they have good career progression options for the 
incoming pilot. And those who are having trouble do not, in 
almost all areas. It is almost that simple: supply and demand 
market economics.
    Ms. Brownley. And is there a certain profile of the new 
pilot coming on board?
    Mr. Canoll. So the pilots that we see today coming into the 
part 121 carriers are products of the new rule, since it has 
been in place for almost 5 years now, and that new rule calls 
for very structured academic training, and then a certain 
baseline, depending on which form of structured academic 
training you had. Let's say it was a 2-year aviation degree. 
You would need 1,250 hours of experience. A 4-year aviation 
degree, you would need 1,000 hours of experience. But if you 
came from the military, you could obtain a restricted ATP 
(Airline Transport Pilot] with 750 hours. So we are finding 
that those structured programs and that experience is producing 
a very high-quality candidate.
    We went through a transition period right after the rule 
came in, where we had some people coming back into the industry 
who already had ATPs, but hadn't flown for many, many years, 
who struggled a little bit in the air carrier training course. 
But we have seen that wane away, and now we are seeing a very 
high-quality candidate.
    Ms. Brownley. Thank you for that. And there has been a lot 
of discussion today on unmanned aircraft in our national 
airspace. And I am just wondering, from your perspective--I 
haven't heard your perspective yet, although I heard you make 
comments in your testimony. But how do you see the Federal 
Government's role in developing, you know, flight standard, 
certification, air traffic requirements for the use of drones 
in our airspace?
    Mr. Canoll. So the Air Line Pilots Association is fully 
supportive of the development and deployment of these 
technologies, just as quickly as possible, as long as safety is 
not compromised.
    From a systematic approach to it, we look at it very 
simply. If the vehicle under consideration is intended to fly 
into the national airspace--which I define as airspace shared 
by our general aviation community and our airlines in the 
military--or the vehicle has the capability to do it in a lost 
link concept, then the development of procedures, 
certification, and operation of that vehicle must be very much 
aligned with what we do today in manned aviation. It shouldn't 
be a new set of standards. The standards exist for operating in 
the national airspace. We need to have those same standards.
    One example would be collision avoidance technologies that 
are mandated on all the airliners my members fly. That type of 
equipment must be installed on any unmanned vehicle that is 
intended to fly in the national airspace, as well.
    Ms. Brownley. Thank you, sir. My time is up. I yield back.
    Mr. Davis. The Chair recognizes the gentleman from 
Minnesota, Mr. Lewis, for 5 minutes.
    Mr. Lewis. Thank you, Mr. Chairman. Thank you to everyone 
who is appearing in front of the committee today. We do 
appreciate it.
    Administrator Bahrami, I have got a question on the 21st 
Century AIRR Act and how it applies, or some of the criticism 
that has been expressed on the other side of the aisle from 
moving air traffic control from the FAA to a nonprofit private 
entity. And I would reiterate the point that this particular 
piece of legislation has nothing to do with privatizing 
profits. They don't go to the stakeholders, they are reinvested 
back into the system. But it is just a more nimble way to make 
certain that air traffic control is up to date, and just merely 
the model of so many other nations.
    But nevertheless, some of my--our colleagues on the 
committee have expressed concern about managing airspace and 
aviation operations, and doing that the right way.
    Now, I want to ask you a question about how the FAA 
currently contracts with private general aviation pilots. I 
understand there is a couple of contractors that we already use 
that are outside the realm of Government. Is that true?
    Mr. Bahrami. Sir, I am not familiar with the specific 
contracts you are referring to.
    Mr. Lewis. Yes, go ahead.
    Mr. Bahrami. If you want to either elaborate or give me the 
questions, I will make sure that I provide you the response.
    Mr. Lewis. Right now the FAA contracts with folks like 
Leidos, which has a presence in my district, in Minnesota, to 
run the flight services center which aids all general aviation 
pilots in planning and executing flights in the national 
airspace.
    And I guess my question is, if that is good enough for 
that, what would be the fear in the 21st Century AIRR Act for 
moving to a similar model?
    Mr. Bahrami. Earlier there was a question with respect to 
the contract towers, and we mentioned that this is something 
that we support. We are supportive of the contract towers. And 
my focus is on safety.
    And I want to point out that, from the safety perspective, 
the ATC reform that is included in the proposed act, there 
would not be any adverse impact to safety. That is my belief. 
And I base that on the fact that there are 60 or so countries 
that have already done that, and the level of safety, based on 
various studies decided that it stayed the same or has 
improved.
    Mr. Lewis. So there are these successful examples. I 
believe, additionally, the FAA recently established the LAANC 
[Low Altitude Authorization and Notification Capability] 
program, is that right, that approves private-sector, third-
party companies to manage unmanned aviation in specific other 
areas to make certain that our national airspace is safe?
    So there are examples of non-Federal entities operating 
portions of the national airspace in a very proficient and safe 
manner, correct?
    Mr. Bahrami. LAANC, you mentioned, is a good example of 
that. It has been working very well. And we are looking forward 
to expanding it to 50 other airports.
    Mr. Lewis. And the FAA still retains safety oversight of 
these programs, as it would the ATC, if it were operated 
independently. Is that correct?
    Mr. Bahrami. That is correct. The responsibility of 
oversight is always with us, sir.
    Mr. Lewis. Very good, thank you.
    I yield back, Mr. Chairman.
    Mr. Davis. Thank you. The Chair recognizes the gentlelady 
from Michigan, Mrs. Lawrence, for 5 minutes.
    Mrs. Lawrence. Thank you so much.
    Captain, in your testimony you talk about how we need to 
ensure that safety regulations should not be driven by economic 
decisions. Can you elaborate on that?
    Mr. Canoll. I think the easiest example is if you listen to 
some of the chatter in town, and certainly in this subcommittee 
as well, about those who believe there is a need to reduce the 
number of hours required or the structured training that is 
currently required for an ATP or restricted ATP. Those are 
attempts to address a market forces issue with regard to pilot 
supply with a safety provision, which I do not believe is what 
the flying public wants us to do.
    If you look more on the economic side, it is a problem for 
the industry that we are going to have to work through together 
to provide service to small communities at an affordable rate.
    We are not blind to the fact that if the airplanes cost 
more, the fuel costs more, the pilots cost more, eventually the 
cost of that operation to a small community will make it 
unaffordable for those who want to access that. Hence the 
Essential Air Service and other programs that are meant to 
offset some of that cost.
    So I think, you know, a lot of attention could be focused 
on that, to see if we can find ways to make it more affordable 
to fly into those things. But reducing safety--and, by the way, 
we are firm believers that just reducing the number of hours or 
reducing structured flight training will not address the 
problem of attracting pilots to the job. That is not going to 
solve the problem, no matter what anyone says. I know what 
attracts pilots to the job, and it is a good work-life balance, 
career progression, and a fair wage.
    Mrs. Lawrence. Captain, I want you to know that I agree 
with you. And so many things that--so often, when Government 
looks at associations or unions or labor groups, they are 
labeled as the other side, where you are the ones--you are 
flying that plane, you are in that seat. You have the ability 
to speak at a level of expertise that we need to hear. And I 
just want you to know I do appreciate you, and because all of 
us fly a lot, we are so appreciative of your service, sir.
    I want to ask this question to the panel. I don't think it 
is an exaggeration to say that the hurricane response--we will 
look back on it as a landmark evolution of drone usage in this 
country. The University of Michigan's College of Engineers is 
building an outdoor fly lab for testing autonomous aerial 
vehicles called the M-Air.
    I wanted to ask this panel what are some of the challenges 
faced by educational institutions today, as they look at R&D in 
the UAS airspace?
    Mr. Bahrami. I will start. In terms of challenges, I think 
there are tremendous innovative ideas out there. And often what 
we are learning is the best way to go forward is through 
prototyping, and actually put those ideas in place and document 
what lessons we learned, and identify those things that maybe 
we did not know prior to conducting that particular research.
    And to some degree, collaboration with the Government 
agencies, industry, will help identify the research 
requirements, going forward. And I think that is how we can 
take what is happening in academia, and actually transfer it 
into regulatory and safety requirements.
    Mrs. Lawrence. And in that vein, to ensure that we do not 
stifle this industry, what are some of the recommendations that 
you have when it comes to regulations, the timeframe? We often 
hear that our regulations stifle the growth. And this industry 
is moving very rapidly. Do you have any recommendations for us?
    You all are not into the drone industry?
    Mr. Canoll. Ma'am, I sit on the Drone Advisory Committee. I 
am a member of the Drone Advisory Committee.
    Mrs. Lawrence. Thank you.
    Mr. Canoll. And we struggle with that question every day.
    Mrs. Lawrence. OK.
    Mr. Canoll. The industry wants a lot of things. They want 
flight beyond visual sight, they want flight at night, they 
want flight over populations. These are all very desirous of 
the industry to make more money. But we also have to take a 
focus on all the challenges to doing that safely.
    The most recent example of success is the UAS ID and 
Tracking ARC results on--in that ARC--we were a member of that 
Aviation Rulemaking Committee, as well. It went wonderful, and 
now the FAA has those recommendations, and we should be seeing 
rulemaking in very short order, which will enable a lot of the 
things the industry wants to do. That is the first and most 
present example of if we are actually making progress. As long 
as the industry and the FAA keep coordinating at the very high 
level they are doing right now, I think we are going to get 
there. You know, we are going to have to be measured, but we 
are going to get there.
    Mrs. Lawrence. Thank you so much. My time is up and I yield 
back.
    Mr. Davis. The gentlelady's time has expired. The Chair 
begrudgingly recognizes the gentleman from Pennsylvania, Mr. 
Perry, for 5 minutes.
    Mr. Perry. Well, thank you, Mr. Chairman. I appreciate your 
indulgence, begrudging indulgence.
    Gentlemen, thanks for being here. I am going to stick with 
the line of questioning from the gentlelady from the great 
State of Michigan. And let me just say before I start that I 
was encouraged that the committee adopted an amendment I had 
last year, the reauthorization bill which provided the 
Administrator the authority to part 107 waivers for UAS 
carrying property beyond the line of sight.
    And I will also tell you, as a rotary-wing guy who operates 
in the low-altitude airspace, I am particularly concerned about 
getting this right here on a regular basis, especially from my 
friends in the EMS community about close encounters, because 
they seem to just--you know, they are headed to an accident, 
and so is everybody else, right? And they want to have their 
own view of it, and so on and so forth.
    At the same time, I think that potentially we are getting 
behind, we are behind, we are missing opportunities in this 
space. And I just want to encourage us to continue safely in 
this regard, but diligently.
    I was pleased to know that the DOT and the FAA place strong 
emphasis on the application and the roll-out of the new UAS 
integration pilot program, so I just want to--UAS IPP is the 
acronym, just to be clear here.
    Mr. Bahrami, acknowledging package delivery is, for the 
time being, prohibited under part 107. How does the FAA 
envision enabling delivery operations in the pilot program? Do 
you know if that is part of that, and how that is being worked 
out? Or where does that stand?
    Mr. Bahrami. At this point I am not familiar with all the 
proposals. We are going through the process, as you know. We 
are following a very strict process. But I can tell you that, 
even outside the IPP, there are companies that have already 
approached the FAA. And we are going to be working with them to 
identify the operational rules that need to be in place for 
those types of operations.
    And there are two ways we could deal with this situation. 
One would be for us to start looking at the regulations and 
come up with a proposal that goes out for public comments and 
all that. But the other way would be to engage with industry 
and let them propose ideas that are workable, given their 
nature of designs, and put the safety requirements, 
performance-based rules, that then actually can go forward and 
design their vehicles to those type of requirements.
    We have chosen the latter. We want to work with them 
because we believe that would be the quickest way for us to 
learn some of the challenges that we are going to be facing.
    Mr. Perry. Right. And I agree with you. I hope they are not 
mutually exclusive. I think that we should engage with industry 
as the experts on this. But at the same time, I think the 
public comment is important. As a person who is fairly 
familiar, I consider myself, having flown for 30 years, 
familiar with the aviation process and so on and so forth, but 
I am also concerned about privacy, about the airspace 
incursions, whether for safety or for privacy, what have you. 
And I think those are important conversations to have. I would 
encourage you to continue.
    I understand that DOT is required to enter into UAS IPP 
agreements with at least five jurisdictions by early May. That 
is my understanding. So if I am wrong, just please correct me. 
Do you anticipate a program being announced by then, or not?
    Mr. Bahrami. I can tell you that we are on schedule.
    Mr. Perry. OK.
    Mr. Bahrami. And I can also tell you that Secretary Chao 
recently announced that the number would be 10. We are doubling 
the numbers.
    Mr. Perry. Excellent, OK. So on schedule, doubling the 
numbers. I think this is good news for those of us that are 
interested in this. And whether--just like you said, Captain 
Canoll, we are concerned for safety and the airspace and 
interoperability and a traffic management system. Nobody wants 
a 50-pound metal object coming through the windscreen at 
whatever hundred miles an hour you are headed. It is going to 
be catastrophic, right? So we can't afford those kind of 
incidents. But at the same time, we need to move forward with 
technology and the things that are in our world today, and just 
do the best we can.
    So I appreciate your answers today, sir, and I thank you 
for your diligence, gentlemen. Thank you.
    Mr. Chair, I yield.
    Mr. Davis. Thank you to my good friend, Mr. Perry. The 
Chair now recognizes the gentleman from Tennessee, Mr. Cohen, 
for 5 minutes.
    Mr. Cohen. Thank you, sir. This has been the greatest 
period of safety in civil aviation, I think, in our history. 
And yet we have got the largest, most complex system. So thank 
you for that. But we still have to remain vigilant to maintain 
those high safety standards which we have established in the 
United States.
    Mr. DeLisi, if I can ask you on--if you recall, October 28, 
2016, American Airlines flight 383 experienced an uncontained 
engine failure and subsequent fire. There were 161 passengers, 
7 flight crew on the plane, 168 people. Several injuries were 
sustained, and NTSB subsequently issued an extensive 
investigation.
    First, Chairman, can I have entered into the record the 
investigative report on that record, without objection?
    [Pause.]
    Mr. Cohen. Without objection? Thank you.
    Mr. Davis. Yes.

        [The 91-page accident report referenced by Congressman Cohen 
        entitled ``Uncontained Engine Failure and Subsequent Fire: 
        American Airlines Flight 383, Boeing 767-323, N345AN, Chicago, 
        Illinois, October 28, 2016'' is available on the website of the 
        National Transportation Safety Board at https://ntsb.gov/
        investigations/AccidentReports/Reports/aar1801.pdf.]

    Mr. Cohen. Thank you.
    Mr. DeLisi, you are familiar with the NTSB's investigative 
report regarding the flight? There were 168 people on board. 
Was that the capacity of that plane?
    Mr. DeLisi. I would have to check into that. I don't recall 
if that was a full flight.
    Mr. Cohen. So you don't know how many passengers could have 
flown that plane or a similar flight. Not necessarily.
    Mr. DeLisi. I could find that.
    Mr. Cohen. Thank you.
    Mr. Bahrami, let me ask you this. In the investigative 
report following the accident, the NTSB recommended--some 
passengers evacuated and they took their carry-on bags, and 
that is a problem. They shouldn't have done that. Does the FAA 
consider the efficient, timely evacuation of planes an 
important factor in passenger safety, and how to accomplish 
that?
    Mr. Bahrami. Absolutely. We have specific rules that--
emergency evac must be completed within 90 seconds. And when we 
conduct that test, we have the maximum passenger loading on--
and adverse situations, such as some of the exits are closed 
and those kinds of situations, to make sure that we get as 
realistic as possible to potential scenarios that may happen in 
service.
    Mr. Cohen. Thank you, sir. Ninety seconds is what current 
Federal law requires all passengers to be able to evacuate.
    In the case of flight 383 it took 2 minutes and 21 seconds 
to evacuate the passengers. Three exits were operable. The 
flight was below passenger capacity, yet it took 51 seconds 
longer, or 63 percent more time than is permissible under 
Federal regulations.
    Subsequent to that, post to that, a U.S. circuit court 
decision was issued in July of 2017. And Mr. Chairman, I ask 
unanimous consent to enter into the record the U.S. court of 
appeals decision of July of 2017.
    Mr. Davis. You didn't get me this time. Without objection.

        [Flyers Rights Education Fund, Inc. D/B/A FlyersRights.org, and 
        Paul Hudson, Petitioners v. Federal Aviation Administration, et 
        al., Respondents (D.C. Cir. July 28, 2017) (No. 16-1101) is on 
        pages 124-146.]

    Mr. Cohen. Thank you, sir.
    You are familiar with that decision, I presume, 
FlyersRights versus U.S.A.?
    Mr. Bahrami. Yes, I am.
    Mr. Cohen. In that decision the panel remarked that the 
FAA's justifications to reject the public petition to review 
airline seat safety as a matter of safety risk was vaporous. 
Even after the dangerous accident involving American Airlines 
flight 383, even after the NTSB's clear recommendation to 
review passenger deplaning times, the FAA took no significant 
action.
    Now the U.S. court of appeals has ordered the FAA to take 
action to review the safety impact that changes in seat size 
and pitch may have. I am concerned the FAA has not taken 
seriously the concerns of the National Transportation Safety 
Board, or even the U.S. court of appeals decision, or this 
committee, which included a study.
    Can we expect some study soon on pitch size and width of 
seats that are getting smaller and smaller and smaller?
    Mr. Bahrami. As you mentioned, we have the court order to 
respond, and we are working on that response. It is a 
coordination. And I think, once that is made public, we know 
what type of work we need to be doing in order to satisfy the 
directives that we have.
    Mr. Cohen. Well, I hope you will do it quickly, because 
lives could be in the balance. I am deeply concerned about the 
flight safety for the flying public. We shouldn't wait until 
somebody dies to respond and to take action to make our planes 
evacuatable within the 90 seconds that is required by law.
    Seat size and pitch continue to shrink, while the average 
American gets larger and larger and taller and taller. And 
while I care about comfort, my bill, the SEAT [Seat Egress in 
Air Travel] Act, is focused squarely on the risk of the flying 
public and safety. This was part of the FAA reauthorization 
package.
    Even if airlines did not oppose the amendment, which they 
didn't--everyone is for safety--I think it should be a grave 
concern of the American public that the FAA has repeatedly 
failed to act in accordance to the guidance and recommendations 
of not only the National Transportation Safety Board, but even 
the U.S. court of appeals. It is clear to me the American 
public is on our side in urging your agency to issue standards 
to keep Americans safe in our skies. And pitch and width is 
part of that, Mr. Bahrami, and I hope this administration will 
do that.
    If I can have just an extra second, Captain, I want to 
thank you for your service----
    Mr. Davis. No.
    Mr. Cohen [continuing]. And ask you this. Do you carry a 
gun in the cockpit?
    Mr. Canoll. No, sir, I am not an FFDO [Federal flight deck 
officer].
    Mr. Cohen. OK----
    Mr. Davis. The gentleman's time has expired, thank you.
    Mr. Cohen. I yield back the balance of my time.
    Mr. Davis. The Chair recognizes the gentlelady from Nevada 
for 5 minutes, Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman. I would like to follow 
up on the question earlier about package delivery. I know that 
you say that there are some plans that are going to be 
announced in May. You don't want to tell me if Nevada is going 
to get one of those proposals, do you, so I can go back with 
some good news?
    But I just worry that all of this is kind of conditional, 
and it is all in the future, and you are all studying and 
planning. As the FAA reauthorization continues to be 
controversial and held up over that one provision about 
privatization--all the rest seems to have pretty much 
bipartisan and industry agreement--is there anything that we 
can be doing to help speed along this drone package delivery?
    We just see it happening every day right now, it is a 
reality in Europe, and we seem to be falling further and 
further behind.
    Mr. Bahrami. Let me start by highlighting that we are 
leading when it comes to integration of drones into airspace. 
Many countries have chosen to segregate. But what we are trying 
to do is integrate, which is the--which is--puts us ahead of 
other countries.
    Having said that, as it was mentioned several times, there 
is tremendous amount of energy, passion, and enthusiasm amongst 
the companies to move forward with these types of initiatives. 
Frankly, FAA does not have a choice than to continue to work 
with those parties and move things forward.
    So, we are at the point right now that the demands are upon 
us to respond, and we are doing so. We are doing it in terms of 
partnerships for safety plans with specific companies that are 
in that particular business. We are trying to learn from their 
work and see what we could do as we move forward.
    And at this point I could tell you that that is a high 
priority for us.
    Ms. Titus. Well, I am glad to hear that. And Nevada has one 
of the test centers in the State, and there is a lot of 
potential use for drones there. I know some of our utility 
companies would like to see them used in remote areas, because 
that would be very helpful--out of line of sight.
    Some of the casinos would like to use drones to deliver 
drinks poolside. I mean that is--let's be creative. I noticed 
even in one of the big fashion houses during fashion week they 
had drones going down the runway, carrying ladies' purses. So, 
I mean, it is endless. But I appreciate that you all have made 
that a priority.
    One thing, too, that concerned me was this rule of the 
administration, this two-for-one Executive order on the 
development of regulations, and how that affects the drone 
industry. I wrote Mr. Mulvaney about that, to ask him, and he 
wrote me back and he said that he thinks maybe that the--he 
says that the OMB believes that maybe the rulemaking that 
expands the use of drones would be considered deregulatory, so 
it wouldn't come under that arbitrary two-for-one elimination.
    I wonder if you all have accepted that. Have you received 
that directive? And does the DOT agree with it, and the FAA?
    Mr. Bahrami. Yes, we are following the directives outlined 
in Executive order. And when you view the requirements in 
there, or the draft, you are looking at two things: first, 
safety; and the other one is enablers, rules that are enablers. 
In those cases, we are moving forward with those.
    And in the area of what--the rules that are considered 
deregulatory, which--there are a number of them identified by 
both industry and other sources. In those cases we have to 
answer two questions: what is the impact on safety if we go 
forward with that action, and what is the impact on FAA's roles 
and responsibilities? Can we still do that job? Those things go 
into the consideration. And at this point we are following that 
guidance.
    Ms. Titus. So you don't feel like that two-for-one 
Executive order is hindering you in the development of drones 
or regulations that are needed?
    Mr. Bahrami. Not so far. I think what it does is that it 
forces us to do a lot more planning, because we need to know 
what rules we have got going and what are some of the 
deregulatory items, and be able to match them together so that 
the net effect is a positive, in terms of benefits, or neutral. 
And that is the work that we have to do in advance before our 
regulatory agenda is published.
    Ms. Titus. Thank you. Thank you, Mr. Chairman.
    Mr. Davis. The gentlelady's time is expired. Glad I get a 
chance to ask my questions. You know, many that I had actually 
have been asked already. So it has been pretty interesting to 
listen to some of my colleagues. My good friend, Mr. Larsen, 
and I, we kind of stopped when we heard about technology 
delivering drinks to the pool. So we would like to get some 
opinions on--can you push that technology to the head of the 
line with your risk-based approach, sir? A simple yes or no is 
good.
    Mr. Bahrami. We will do our best.
    [Laughter.]
    Mr. Davis. Thanks. Speaking of--a lot of this hearing I 
don't think many originally thought would center on drone and 
UAS technology, but I just want to let you know I appreciate 
the FAA's risk-based approach on UAS, and I look forward to 
continuing to work with you.
    As you may know, and many on the panel may know, I 
introduced an amendment to the 21st Century AIRR Act that would 
create a microdrone category. And I would hope that that 
language is being utilized as part of your risk-based approach, 
as part of any advisory committee that you may be a part of, 
Captain, because my feeling is that manufacturers will begin to 
manufacture that technology in a much more safer way for our 
air system if they know what the minimum standards are. And 
that, to me, would ensure that we would keep that technology 
moving forward.
    Mr. Bahrami, I also wanted to ask you for an update on a 
piece of legislation that was signed into law back in 2016. It 
is section 2309 of the FAA Extension, Safety, and Security Act 
of 2016. I had a provision based on my legislation, the 
Families Flying Together Act, which required DOT to review and, 
if appropriate, establish a policy requiring air carriers to 
enable children to sit with a parent or an accompanied family 
member.
    The deadline for implementation was July 15, 2017. Do you 
have an update on this?
    Mr. Bahrami. Sir, consumer protection issues are handled by 
the Department of Transportation, and I will be glad to take 
the question and provide you with an update.
    Mr. Davis. All right. And in--thank you for doing that, I 
appreciate your relaying that to the DOT Aviation Consumer 
Protection Division. If you could, would you ask them to reach 
out to my office? And I would love to schedule a meeting to get 
a personal update from that team.
    Mr. Bahrami. Absolutely.
    Mr. Davis. All right, thank you.
    Mr. Bahrami. Thank you.
    Mr. Davis. Captain, you mentioned something. I don't 
remember--the hearing has gone on long--if it was your opening 
testimony or if it was in response to one of the initial 
questions, but you mentioned student loans and the debt that 
pilots may incur. Do you know what the average student loan 
debt is for a pilot going into aviation, coming out of 
training?
    Mr. Canoll. No, sir, we don't. I don't. We don't keep those 
statistics. We do know it is expensive. And the problem with 
the traditional student loans is the current system of caps and 
forbearance.
    So in the higher education bill, we are urging a broader 
look at how student loans could help an individual interested 
in, let's say, being a pilot, factor in the higher cost that 
flight training is going to have to be included. And that would 
mean higher caps for that particular profession, like it has 
provided in other professions, and then maybe a different 
mechanism for forbearance on the repayment of those loans. 
Still a loan construct, still not the best way to do it, 
because loans are expensive. But nevertheless, the only way for 
a lot of people.
    Mr. Davis. Well, I appreciate your comments on the 
forbearance issues and the Higher Ed Act, but I want to bring 
your attention to a bill that I have introduced called the 
Employer Participation in Student Loan Assistance Act. And what 
it does, it sets up a voluntary, private-sector approach that 
would allow for a company to receive a tax benefit to offer up 
to a little over $5,000 per year to an employee. And the 
benefit would be the employee wouldn't be taxed on it, either.
    So it is something that could get us to pay down student 
debt even more, and allow it to be negotiated as part of a 
benefits package. So I would love for ALPA and any other 
organization, the Allied Pilots Association, and Southwest 
Airlines Pilots Association, and all of the different pilots 
organizations to take a look at that, because it is an idea 
that I think could help get much of that debt off the plate of 
some of your youngest pilots, and give them a chance to go into 
your profession easier.
    And if you look at polling, millennials right now, the 
biggest concern they have is student loan debt.
    Mr. Canoll. Yes.
    Mr. Davis. And they are not going to go into an expensive 
profession to get that education like aviation if we don't give 
them this assistance. So take a look at that. I appreciate the 
opportunity to bring that up. Thanks for your comments.
    Mr. Canoll. Yes, sir.
    Mr. Davis. And I will yield back the balance of my time to 
Mr. Larsen, very quickly.
    Mr. Larsen. So Mr. Chairman, without objection, I would 
like to enter a letter into the record with 443 signatories of 
folks who oppose any attempts to privatize the air traffic 
control system, including the Washington Pilots Association 
from the great State of Washington, just to show the wisdom of 
this move. So I would like to enter this into the record.
    Mr. Davis. No.
    [Laughter.]
    Mr. Davis. Without objection.

        [The letter referenced by Congressman Larsen is on pages 147-
        154.]

    Mr. Larsen. Thank you.
    Mr. Davis. The Chair recognizes the gentleman from 
California, Mr. DeSaulnier, for 5 minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman. And I want to 
thank the chairman of this subcommittee, the ranking member, 
and the ranking member of the full committee on their opening 
comments in mentioning an issue that is very important to me 
and the residents of the San Francisco Bay area, and 
acknowledging those incidents there.
    And I want to also thank, first, the captain and your 
association for being so great for myself and my staff to work 
with. I have had a lot of input from your members individually 
and when you have come to see us on the issue of runway 
incursions and near misses. I have learned a lot.
    Then I want to acknowledge both the NTSB and the FAA. My 
initial contacts, to be honest, were not as productive as I 
thought. But subsequent to that, I really appreciate the 
meetings.
    So I say this in a tone, first of all, acknowledgment that 
there is a problem. And although I get now in regular--still 
followed very closely by the bay area media, it was on two 
stations this past weekend--and trying to put it in context, 
that we should acknowledge the safety record. But on the other 
hand, we should be doing everything to make sure that what is 
happening is not a regression of the means, that we are so 
comfortable with our safety record that we are not looking at 
these near misses and learning from them.
    So, Mr. DeLisi--and thank you for your career. I have great 
admiration for what you have done and the value you have given 
to the traveling public. So I want to talk a little bit about 
your most wanted list issue area. First, you mentioned that 
expanding use of recorders, both audio visual and voice and 
other recorders, are on your wish list. So could you expand on 
that?
    And what is the cost for us to be able to get that, either 
the private sector or the Federal Government, to help you with 
that? And how would that help with these near misses and the 
runway incursions?
    Mr. DeLisi. Well, thank you. Certainly in the part 121 
airline operation realm, aircraft are equipped with flight data 
recorders and cockpit voice recorders, the cockpit voice 
recorders only capture 2 hours' worth of information. They are 
designed with an impacts, which--they are really a tool for 
accident investigation. If the airplane is involved in an 
accident, it will stop recording and preserve the data.
    However, in an incident in which the airplane is undamaged, 
likely power will remain on as passengers disembark, and the 
next load of passengers will get on board and, very quickly, 
that data is going to be overwritten. So we know that ICAO is 
looking at a new standard for 2021 to go to a 25-hour recording 
standard for CVRs [cockpit voice recorders]. We think that 
would be very helpful.
    In the part 135 realm, we see accidents in which airplanes 
fall below the threshold of being required to have a flight 
data recorder. And in airplanes like that, when there is not an 
optional flight data monitoring recorder, there is no way for a 
company to understand how that flight is being operated. There 
is no way to monitor procedural compliance and stabilized 
approach criteria being met. There is no insight. And the 
accidents that we have investigated recently, like the one in 
Akron, Ohio, and a more recent one in Teterboro, New Jersey, 
show that those airplanes are not being flown in accordance 
with company procedures.
    So the push on the part 135 operators is to require a low-
cost, lightweight flight data monitoring recorder to allow that 
sort of monitoring.
    Mr. DeSaulnier. So just the jurisdictional issues of 
looking at these near misses and what the triggers are--we have 
talked to you and looked at, is it specifics of the airport, 
why this--at SFO we are pushing, we are very busy, we are happy 
about that--the design of the airports?
    But it does seem that, given all the proper restrictions 
for privacy and for the good relationships between the 
operators, the pilots, it--from a lay person's standpoint, if 
you made sure all of those were consistent, as they are for the 
voice recorders, you can go to Best Buy right now and get a 
device that would record the last half hour, so you at least 
know that conversation and what the human factors were 
happening in that cockpit when it happened. Could you comment 
on that?
    Mr. DeLisi. Yes. We are seeing companies--operators that 
are voluntarily equipping their fleets with a device like an 
Appareo Vision 1000 recorder that does video, audio, and some 
parameters, and it is a great tool for monitoring flights, and 
it certainly comes in handy, should those aircraft be involved 
in an accident or an incident.
    Mr. DeSaulnier. So it would be helpful?
    Mr. DeLisi. Yes.
    Mr. DeSaulnier. OK. Anything from the FAA in this regard, 
either the incursions or getting more information from the 
cockpit?
    Mr. Bahrami. Well, as was mentioned by Mr. DeLisi, we 
definitely would like to see as much information as possible, 
in order to transpire what occurred prior to accident. And 
recorders--in this case, voice recorder--is one of those tools. 
And there are other ways to be able to decipher what 
transpired. And at this point I think we know, historically, 
any kind of a visual recording has been quite controversial. 
And if we decide to go that route we have to go through the 
process and deliberation and discussions before we make any 
policy decisions.
    Mr. DeSaulnier. Well, thank you. I want to thank the 
chairman, too. I recognize again--and I know I have run out of 
time--the amazing safety record. However, if that 59 feet had 
finalized in a tragedy, and if it happens in the future, we are 
all going to be held to account, which I think would be 
appropriate. So we want to avoid that.
    Thank you, Mr. Chairman.
    Mr. Perry [presiding]. The Chair thanks the gentleman from 
California. The Chair now recognizes Mr. DeFazio from Oregon.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Bahrami, I keep hearing about our outmoded radar-based 
system, and how good it could be, and about the space-based 
ADS-B. Have we deployed an operable, currently operating ADS-B 
system that covers the entire continental United States and 
Alaska and part of the Gulf of Mexico?
    It is a simple question. Have we? Is there such a system 
today that operates?
    Mr. Bahrami. Yes, yes, of course.
    Mr. DeFazio. OK. So we have that.
    Mr. Bahrami. Yes.
    Mr. DeFazio. Why aren't all the commercial airlines using 
it? Oh, because they haven't purchased the equipment to use it, 
is that correct?
    Mr. Bahrami. Well, it is also the rule is not in effect.
    Mr. DeFazio. Yes, we didn't mandate it until 2020.
    Mr. Bahrami. Yes, it is----
    Mr. DeFazio. That is correct. But it isn't like--that we 
can't develop the system, it doesn't exist, you know, and we 
are so far behind. We have it, and we are not using it, because 
the airlines haven't invested in the equipment because we 
didn't make them invest until 2020. OK?
    Mr. Bahrami. That is right.
    Mr. DeFazio. Thanks. So that is one of the myths here that 
is a bit disturbing.
    Now, Captain Canoll, I understand the frustration and I 
understand the frustration of others, because of idiots in 
Congress who adopt things like sequestration and shutdowns and 
apply it to programs that are fully funded. That is easily 
solved. All we have to do is take the current system of funding 
off budget.
    But you are supporting a bill that actually reduces the 
revenues by $8 billion over 10 years to support the air traffic 
control system. The pilots will have a place at the table, the 
airlines will have a place at the table to determine what new 
fees will be paid by passengers or airlines.
    How are you going to raise $8 billion? The ticket tax goes 
away, 80 percent of it. That is how we fund the system now. 
That is $9.9 billion over 10 years. Eighty percent goes away. 
We have just lost $8 billion. And the airlines are going to 
raise their tickets by 7.5 percent, just like they did when 
then-Congressman Mica let it go when we temporarily suspended 
the tax because of some dispute he was having. For 3 weeks, 
every airline in America, except Alaska, raised their tickets 
7.5 percent, got a windfall of $400 million. That didn't go 
into the trust fund. This time they are going to get a windfall 
of $8 billion when they raise their ticket taxes.
    How do you, as, you know, your organization, as one of the 
organizations supporting this bill, intend to raise the $8 
billion from passengers or airlines after privatization takes 
effect?
    Mr. Canoll. So our concept, or our policy, requires that 
the test be applied to ensure that any fee structure that is 
put in place in a successor organization is fair. And we----
    Mr. DeFazio. Would a head tax on passengers be fair? The 
airlines have just claimed the $8 billion of new windfall, and 
now they are going to say, ``Well, gee, I think we are going to 
have to say everybody that gets on a plane pays $25 to use the 
national airspace.'' Would that be fair?
    Mr. Canoll. That and many other ways might be fair.
    Mr. DeFazio. Great. So we pay for higher tickets, and you 
pay to use the airspace every time you fly. And somehow this is 
an improvement over the current system?
    The only problem with the current system is the idiots I 
work with. That is the only problem. We are raising more than 
enough money, we have deployed the new system. The airlines 
haven't bought the equipment. They are not using it. And here 
we are, saying, oh, we need to privatize.
    I mean, seriously. I know that there are some who are 
saying, ``Oh, gee, we might be considering pilot training if--
oh, OK, well, all right, we won't consider it.''
    You know, I don't like the way this place is working right 
now. And I think there is some groups supporting this 
privatization who really, in their hearts, don't support it.
    With that, I yield back the balance of my time.
    Mr. Perry. The Chair thanks the gentleman from Oregon. 
Before we adjourn, Mr. Bahrami, can you just--in keeping with 
the recent testimony and questioning, what is the current 
general aviation ADS-B equipage rate? Do you have any idea 
where they stand?
    Mr. Bahrami. We are--I don't have the exact number, but I 
can tell you that it is not where we would like it to be.
    Mr. Perry. Can you get back to us with the exact number----
    Mr. Bahrami. Absolutely.
    Mr. Perry [continuing]. At this time?
    Mr. Bahrami. Of course, of course, we will do that.
    Mr. Perry. All right. I appreciate that.
    If there are no further questions, I would like to thank 
the witnesses for being here this morning. We appreciate it. 
Gentlemen, this has been informative and helpful, and we 
appreciate your time and willingness to come and sit in the hot 
seat.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 12:08 p.m., the subcommittee was adjourned.]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                    
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
